                                                                             Report No. DODIG-2014-051




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              MARCH 31, 2014




                     Assessment of DoD Voting
                     Assistance Programs for
                     Calendar Year 2013




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Assessment of DoD Voting Assistance Programs for
                                       Calendar Year 2013


March 31, 2014                                         Observations
Objective                                              The Army, Navy, Air Force, and Marine Corps did have functioning
                                                       Voting Assistance Programs, had persons assigned to appropriate
The objective of our voting assistance
                                                       Voting Assistance Program duties, conducted regular oversight of
program assessment is to continue our
                                                       the Voting Assistance Programs, identified deficiencies and areas
ongoing evaluation of voting assistance to
                                                       for improvement, and implemented corrective actions. Therefore,
Service members and report as required on
                                                       the DoD Office of Inspector General concurs with the Service
risks to program objectives, or violations of
                                                       inspectors general determinations that their respective Service
law, policy, or regulation, so public officials
                                                       complied with Voting Assistance Programs and regulations. We
and those charged with governance can take
                                                       found, however, that some Voting Assistance Program issues need
appropriate action.
                                                       to be addressed:
We will do this by assessing:
                                                          •	 Lack of an Established and Sustained Installation Voter
   •	 Military Services’        Voting    Assistance         Assistance Office
      programs, and
                                                          •	 Lack of Distribution of Standard Form 76, “Voter Registration
   •	 the portion of Federal Voting Assistance               and Absentee Ballot Request Federal Post Card Application”
      Program Office responsibilities that fall              (FPCA)
      within the DoD
                                                          •	 Lack of Command Oversight
for    compliance     and    effectiveness   in
                                                          •	 Incomplete Tracking of Voting Assistance Program Outreach
accordance with the requirements set forth
                                                             Metrics
in section 1566, title 10, United States Code,
(10 U.S.C. § 1566 (c) (3), [2006]) “Voting                •	 Use of Standardized E-mail Addresses for Unit Voting
assistance; compliance assessments; assistance.”             Assistance Officers
This statute requires the DoD Inspector
                                                          •	 Voting Assistance Officer       Duties    Not   Addressed      in
General (IG) to:
                                                             Performance Evaluations
  (3)	 Not later than March 31 each year, the
                                                       In addition, several issues from the prior DoD Inspector General
       Inspector General of the Department
                                                       Voting Assistance Program report remain unaddressed:
       of Defense shall submit to Congress a
       report on—                                         •	 Lack of a Standardized Definition for an Installation

  (A)	 the effectiveness during the preceding             •	 Outdated Regulatory Requirements
       calendar year of voting assistance
       programs; and                                      •	 Measuring Federal Voting Assistance Program Effectiveness

  (B)	 the level of compliance during the
       preceding calendar year with voting
       assistance programs of each of the Army,
       Navy, Air Force, and Marine Corps.

Visit us on the web at www.dodig.mil                                       DODIG-2014-051 (Project No. D2014-D00SPO-0067.000) │ i
                   Recommendations, Management Comments, and
                   Our Response
                   Recommendation 1.a
                   The Commander, Air Force Materiel Command ensure that a fully functioning Installation Voter
                   Assistance office is established and sustained at Hanscom Air Force Base.

                   Commander, Air Force Materiel Command
                   As of the publication of this report, the DoD Office of Inspector General had not received a formal
                   response regarding Recommendation 1.a from the Commander, Air Force Materiel Command.

                   Our Response
                   The DoD Office of Inspector General requests that the Commander, Air Force Materiel Command
                   respond to Recommendation 1.a in the final report by April 30, 2014, providing their plan to
                   ensure that a fully functioning Installation Voter Assistance office is established and sustained at
                   Hanscom Air Force Base or other bases within their command.


                   Recommendation 1.b
                   The Air Force Director of Services ensure Air Force compliance with the Department of
                   Defense Instruction 1000.04, “Federal Voting Assistance Program (FVAP),” September 13, 2012,
                   enclosure 4, section 2.c. requirement to establish an Installation Voter Assistance office on each
                   military installation.

                   Air Force Director of Services
                   The Air Force Director of Services concurred with Recommendation 1.b, and provided the Air Force
                   plan for addressing the lack of an established and sustained Installation Voter Assistance Office.

                   Our Response
                   The comments of the Air Force Director of Services were responsive to Recommendation 1.b.
                   No further comment is required.


                   Recommendation 2
                   The Air Force Director of Services ensure that Unit Voting Assistance Officers are trained to
                   implement the requirement to complete delivery of Standard Form 76, “Voter Registration and
                   Absentee Ballot Request Federal Post Card Application” to all Service members as outlined in
                   Air Force Instruction 36-3107, “Voting Assistance Program,” February 27, 2014, and the most
                   current version of the Air Force Voting Action Plan.




ii │ DODIG-2014-051 (Project No. D2014-D00SPO-0067.000)
Air Force Director of Services
The Air Force Director of Services concurred with Recommendation 2, and provided the
Air Force plan for ensuring complete delivery of Standard Form 76, “Voter Registration and
Absentee Ballot Request Federal Post Card Application” (FPCA).

Our Response
The comments of the Air Force Director of Services were responsive to Recommendation 2.
No further comment is required.


Recommendation 3
The Air Force Director of Services reemphasize the requirement for commanders to provide
effective command oversight of Air Force Voting Assistance Programs to ensure compliance
with Department of Defense Instruction 1000.04, “Federal Voting Assistance Program
(FVAP),” September 13, 2012, and Air Force Instruction 36-3107, “Voting Assistance Program,”
February 27, 2014.

Air Force Director of Services
The Air Force Director of Services concurred with Recommendation 3, and provided the
Air Force plan for engaging in a “Command Emphasis Campaign” regarding the Air Force Voting
Assistance Program.

Our Response
The comments of the Air Force Director of Services were responsive to Recommendation 3.
No further comment is required.


Recommendation 4
The Adjutant General, United States Army ensure that future versions of the Army Voting Action
Plan include requirements for Installation and Unit Voting Assistance Officers to track and report
the reasons why Service members requested voting assistance or a Standard Form 76, “Voter
Registration and Absentee Ballot Request Federal Post Card Application,” and associated metrics.

The Adjutant General, United States Army
The Adjutant General, United States Army, non-concurred with Recommendation 4, and stated
the requested metrics were included in the Army Voting Action Plan 2012, but not the Army
Voting Action Plan 2013 because CY 2013 was not an election year. The Adjutant General,
United States Army further stated that the Army has added requirements to track the requested
voting assistance program metrics in the Army Voting Action Plan 2014.

Our Response
Comments from the Adjutant General, United States Army partially addressed
Recommendation 4. The DoD Office of Inspector General finds that, while the Army non-concurred,




                                                                 DODIG-2014-051 (Project No. D2014-D00SPO-0067.000) │ iii
                  in fact, they had responded to the intent of the observation and recommendation and
                  initiated corrective action. The DoD Office of Inspector General requests that the Adjutant
                  General, United States Army respond to the final report by April 30, 2014, with a plan to ensure
                  continued emphasis on the tracking and reporting of voting outreach metrics in future Army
                  Voting Action Plans.


                  Revised Recommendation 5
                  The Adjutant General, United States Army; Commander, Navy Installations Command; Air Force
                  Director of Services; and Deputy Commandant of the Marine Corps for Manpower and Reserve
                  Affairs regularly verify the implementation of Federal Voting Assistance Program Office-approved,
                  Service-level alternative procedures to meet the intent of the standardized e-mail address for
                  Unit Voting Assistance Officers requirement of Department of Defense Instruction 1000.04,
                  “Federal Voting Assistance Programs (FVAP),” September 13, 2012, enclosure 4, section 2.r.

                  The Adjutant General, United States Army; Commander, Navy Installations
                  Command; Air Force Director of Services; and Deputy Commandant of the
                  Marine Corps for Manpower and Reserve Affairs
                  All of the Services formally non-concurred with the previous draft Recommendation 5, “Use
                  of Standardized E-mail Addresses for Unit Voting Assistance Officers,” citing challenges in
                  information technology.

                  Our Response
                  For Observation 5, “Use of Standardized E-mail Addresses for Unit Voting Assistance Officers,”
                  the Federal Voting Assistance Program Office, stated, after the release of the draft of this report
                  for management comments, that the Services’ current alternative procedures met the Federal
                  Voting Assistance Program Office’s revised interpretation of the intent of the DoD Instruction’s
                  standardized e-mail address requirement for unit voting assistance officers.

                  Based on the input from the Services and the Federal Voting Assistance Program Office, the DoD
                  Office of Inspector General issued Revised Recommendation 5. The DoD Office of Inspector
                  General requests, therefore, that the Adjutant General, United States Army; Commander, Navy
                  Installations Command; Air Force Director of Services; and Deputy Commandant of the Marine
                  Corps for Manpower and Reserve Affairs respond to Revised Recommendation 5 by April 30, 2014,
                  providing their plan for verification of the implementation of FVAP Office-approved Service level
                  alternative procedures.


                  Recommendation 6.a
                  The Under Secretary of Defense for Personnel and Readiness issue guidance that requires
                  the Services to comply with the section 1566 (f)(1), title 10, United States Code requirement
                  regarding Voting Assistance Officer performance evaluation reports..




iv │ DODIG-2014-051 (Project No. D2014-D00SPO-0067.000)
Under Secretary of Defense for Personnel and Readiness
The Under Secretary of Defense for Personnel and Readiness concurred with
Recommendation 6.a, and stated that they “will incorporate guidance regarding Voting
Assistance Officer performance evaluation reports into DoD Instruction 1000.04, “Federal Voting
Assistance Program,” which is currently under revision.”

Our Response
The DoD OIG finds the management comments of the Under Secretary of Defense for Personnel
and Readiness to be responsive to Recommendation 6.a. No further comments are required.


Revised Recommendation 6.b
The Adjutant General, United States Army, ensure continued command emphasis on the
section 1566 (f)(1), title 10, United States Code and Army Regulation 608-20, “Army Voting
Assistance Program,” October 28, 2004, requirement for comment on voting assistance officer
performance in their evaluations in future-versions of the Army VAP regulations and Army Voting
Action Plans.

The Adjutant General, United States Army
The Adjutant General, United States Army non-concurred with the previous draft
Recommendations 6.b.1 and 6.b.2. regarding continued command emphasis on Voting Assistance
Officer duties, and stated that the Army Voting Action Plan 2014 addressed the requirement.

Our Response
Based on the United States Army Adjutant General’s management comments, the DoD Office
of Inspector General added Revised Recommendation 6.b. The comments by the United States
Army Adjutant General were partially responsive to Revised Recommendation 6.b. The DoD
Office of Inspector General requests that the Adjutant General, United States Army, respond
to Recommendation 6.b in the final report by April 30, 2014, with a plan to ensure continued
emphasis on this requirement in future years Army Voting Action Plans.


Revised Recommendation 6.c.1 and 6.c.2
Commander, Navy Installations Command ensure that:

        (1)	   Evaluations of Service members designated as Voting Assistance Officers
               include comments on their Voting Assistance Officer performance in accordance
               with section 1566 (f)(1), title 10, United States Code.

        (2)	   Service Voting Assistance Program regulations require that Voting Assistance
               Officer performance is commented on in their performance evaluations in
               accordance with section 1566 (f)(1), title 10, United States Code.




                                                               DODIG-2014-051 (Project No. D2014-D00SPO-0067.000) │ v
                  The Commander, Navy Installations Command
                  The Commander, Navy Installations Command non-concurred with the previous draft
                  Recommendations 6.b.1 and 6.b.2 and stated that DoD Instruction 1000.04, “Federal Voting
                  Assistance Program (FVAP),” September 13, 2012, does not require Service Voting Assistance
                  Programs to require voting assistance officer performance to be commented on in their
                  performance evaluations. The Commander, Navy Installations Command further stated that
                  the Navy Voting Assistance Program will continue to strictly adhere to Department of Defense
                  guidance and instruction.

                  Our Response
                  The management comments of the Commander, Navy Installations Command were not responsive
                  to draft Recommendations 6.b.1, and 6.b.2. Based on their comments, the DoD Office of Inspector
                  General revised the recommendations and changed them to 6.c.1, and 6.c.2, to reflect that
                  United States Code is the source of the requirement. The DoD Office of Inspector General requests
                  that the Commander, Navy Installations Command, respond to Revised Recommendations 6.c.1.
                  and 6.c.2. in the final report by April 30, 2014, with their plan to update Navy Voting Assistance
                  Program regulations and ensure that voting assistance officer performance is commented
                  on in their performance evaluations in accordance with 10 U.S.C. § 1566 (f)(1)[2006].


                  Recommendations Table
                                                                         Recommendations        No Additional
                                         Management                      Requiring Response   Comments Required
                      The Under Secretary of Defense for Personnel and                        6.a
                      Readiness
                      The Adjutant General, United States Army           4, 5, 6.b
                      Commander, Navy Installations Command              5, 6.c.1, 6.c.2
                      Commander, Air Force Materiel Command              1.a
                      Air Force Director of Services                     5                    1.b, 2, 3
                      Deputy Commandant of the Marine Corps for          5
                      Manpower and Reserve Affairs

                  Total Recommendations in this report: 10

                  For recommendations requiring response, please reply by April 30, 2014.




vi │ DODIG-2014-051
                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                    4800 MARK CENTER DRIVE
                                 ALEXANDRIA, VIRGINIA 22350-1500
                                                                                         March 31, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
		             DIRECTOR, FEDERAL VOTING ASSISTANCE PROGRAM
		             ADJUTANT GENERAL, ARMY
		             INSPECTOR GENERAL, DEPARTMENT OF THE ARMY
		             COMMANDER, NAVY INSTALLATIONS COMMAND
		             NAVAL INSPECTOR GENERAL
		             COMMANDER, AIR FORCE MATERIEL COMMAND
		             AIR FORCE DIRECTOR OF SERVICES
		             U.S. AIR FORCE INSPECTOR GENERAL
		             DEPUTY COMMANDANT OF THE MARINE CORPS FOR
		                MANPOWER AND RESERVE AFFAIRS
		             INSPECTOR GENERAL OF THE MARINE CORPS

SUBJECT:	 Assessment of DoD Voting Assistance Programs for Calendar Year 2013
	         (DODIG-2014-051)

The Deputy Inspector General, Special Plans and Operations is providing this report for review and
comment. We considered management comments to a draft of this report when preparing the final report.

The Commander, Air Force Materiel Command did not provide a formal response to this report at the
time of its publication. We request that they respond to Recommendation 1.a of the final report by
April 30, 2014.

Comments from the Air Force Director of Services were responsive. Comments from the Adjutant
General, United States Army; Commander, Navy Installations Command; and Deputy Commandant of
the Marine Corps for Manpower and Reserve Affairs were either partially responsive or non-responsive.
Based on comments we received from all of the Services, we issued a Revised Recommendation 5. As
a result, we ask that all Services respond to the Revised Recommendation 5.

We request a response by April 30, 2014, on the following recommendations:

         •	 Adjutant General, United States Army—Recommendations 4, 5, and 6.b.

         •	 Commander, Navy Installations Command—Recommendations 5, 6.c.1, and 6.c.2.

         •	 Commander, Air Force Materiel Command—Recommendation 1.a.

         •	 Air Force Director of Services—Recommendation 5.

         •	 Deputy Commandant of the Marine Corps for Manpower and Reserve Affairs—
            Recommendation 5.

Please provide a response that conforms to the requirements of DoD Directive 7650.3. If possible, send
your response in electronic format (Adobe Acrobat file only) to SPO@dodig.mil. Copies of your response
must have the actual signature of the authorizing official for your organization. We are unable to accept
the /Signed/ symbol in place of the actual signature. We should receive your response by April 30, 2014.

We appreciate the courtesies extended to the DoD OIG assessment team. Please direct questions to
SPO@dodig.mil. We will provide a formal briefing on the results if management requests.



	                                               Kenneth P. Moorefield
	                                               Deputy Inspector General
	                                                 Special Plans and Operations
                                                                                                 DODIG-2014-051 │ vii
Contents
Introduction
Objective__________________________________________________________________________________________1
Background_______________________________________________________________________________________1
Criteria____________________________________________________________________________________________2
     Federal Guidance___________________________________________________________________________2
     DoD Guidance_ _____________________________________________________________________________3
     Service Guidance___________________________________________________________________________4
Scope and Methodology_________________________________________________________________________4

Part I. Military Service VAP Compliance____________________________5
Army Voting Assistance Program Compliance_________________________________________________7
Navy Voting Assistance Program Compliance_________________________________________________9
Air Force Voting Assistance Program Compliance___________________________________________ 11
Marine Corps Voting Assistance Program Compliance______________________________________ 13

Part II. Observations_____________________________________________________________ 15
Observation 1. Lack of an Established and Sustained Installation
    Voter Assistance Office___________________________________________________________________ 17
Observation 2. Lack of Proper Distribution of Federal Post
    Card Applications________________________________________________________________________ 21
Observation 3. Lack of Command Oversight________________________________________________ 23
Observation 4. Incomplete Tracking of Voting Assistance Program
    Outreach Metrics_________________________________________________________________________ 27
Observation 5. Use of Standardized E-mail Addresses for Unit Voting
    Assistance Officers_______________________________________________________________________ 31
Observation 6. Voting Assistance Officer Duties Not Addressed in Performance
    Evaluations_______________________________________________________________________________ 37




                                                                                                    DODIG-2014-051 │ ix
                     Contents (cont’d)
                     Part III. Follow-up on Prior Observations
                     and Recommendations _ ______________________________________________________ 43
                     Lack of a Standardized Definition for an Installation_______________________________________ 45
                     Outdated Regulatory Requirements__________________________________________________________ 51
                     Measuring Federal Voting Assistance Program Effectiveness______________________________ 53

                     Appendixes
                     Appendix A. Scope and Methodology________________________________________________________ 55
                     Appendix B. Federal Voting Assistance Program Overview________________________________ 57
                     Appendix C. Prior Coverage __________________________________________________________________ 63

                     Acronyms and Abbreviations______________________________________________ 65




x │ DODIG-2014-051
                                                                                                 Introduction




Introduction
In this section, we will detail the purpose, background, and supporting statutes and
regulations behind the DoD’s Voting Assistance Programs (VAPs).


Objective
The objective of this assessment is to continue the DoD Office of Inspector General
(OIG) evaluation of the DoD VAP support provided to Service members. In addition,
we will report to Congress and the DoD on risks to program objectives or violations
of law, policy, or regulation, so public officials and those charged with governance can
take appropriate action. We will do this by assessing the Military Services’ VAPs and
the portion of Federal Voting Assistance Program (FVAP) Office responsibilities that
fall within the DoD. The assessment will also address compliance and effectiveness in
accordance with the requirements set forth in section 1566, title 10, United States Code,
(10 U.S.C. § 1566 (c) (3), [2006]) “Voting assistance; compliance assessments;
assistance.” This statute requires:

        (3)	 Not later than March 31 each year, the Inspector General of the Department
              of Defense shall submit to Congress a report on—

                (A)	 the effectiveness during the preceding calendar year of voting
                      assistance programs; and

                (B)	 the level of compliance during the preceding calendar year with
                      voting assistance programs of each of the Army, Navy, Air Force, and
                      Marine Corps.


Background
The DoD VAPs include the FVAP Office in the Office of the Under Secretary of Defense
for Personnel and Readiness and the Military Service VAPs. These VAPs work to provide
U.S. citizens worldwide a broad range of non-partisan information and support to
facilitate their participation in the voting process regardless of where they work or live.

The roles and responsibilities of the FVAP Office and the Military Services, along with
other relevant organizations, are described in Appendix B, Federal Voting Assistance
Program Overview, of this report.




                                                                                              DODIG-2014-051 │ 1
Introduction



                 Criteria
                 Federal Guidance
                 42 U.S.C. Chapter 20 (2012)—Elective Franchise This chapter provides requirements for
                 elections in the United States and articulates that all citizens of the United States who
                 are otherwise qualified by law to vote at any election by the people in any state shall
                 be entitled and allowed to vote at all elections, without discrimination.1

                                   42 U.S.C. Chapter 20, Subchapter I-H (2012)—National Voter Registration
                                   further expands the concept by stating that Congress finds that the right of
                                   citizens of the United States to vote is a fundamental right, and it is the duty
                                   of the Federal, state, and local governments to promote the exercise of that
                                   right. Two of the purposes of section 1973gg, title 42, United States Code,
                                   (42 U.S.C. § 1973gg [2012]) are to establish procedures that will increase
                                   the number of eligible citizens who register to vote in elections for Federal
                                   office, and to make it possible for Federal, state, and local governments to
                                   implement this subchapter in a manner that facilitates the participation of
                                   eligible citizens as voters in elections for Federal office.

                                   42 U.S.C. Chapter 20, Subchapter I-G (2012)—Registration and Voting by
                                   Absent Uniformed Services Voters and Overseas Voters in Elections For
                                   Federal Office was amended by Public Law 99-410, “The Uniformed and
                                   Overseas Citizens Absentee Voting Act” (UOCAVA) which established various
                                   programs intended to help Military and eligible overseas voters to register,
                                   vote, and have their votes counted. For further discussion on roles and
                                   responsibilities, see Appendix B, Federal Voting Assistance Program Overview.

                 Public Law 111-84, title V, subtitle H, “The Military and Overseas Voter Empowerment
                 Act” (MOVE Act) expanded the Federal election laws to provide voter assistance to
                 Service members who may be stationed away from their home. It included additional
                 requirements for:

                               •	 a website that listed election office contact information for each state;

                               •	 ballot collection and delivery;

                               •	 voter registration outreach;



                 	1	
                       Public Law 111-84, title V, subtitle H, of October 28, 2009, subsequently codified in 10 U.S.C. §1566a (2006),
                       and 42 U.S.C. §1973ff (2012) et seq.




2 │ DODIG-2014-051
                                                                                             Introduction



         •	 VAP reporting; and

         •	 utilization of technology for voting assistance.

The VAP statutes provide voting assistance to eligible voters that fall into the following
categories:

         •	 Service members, absentee Service members (stationed away from home),
              and spouses and dependents of Service members who are of voting age;

         •	 absent DoD civilians, Merchant Marine, Public Health Service, National
              Oceanic and Atmospheric Administration, and their spouses and dependents
              who are of voting age; and

         •	 U.S. citizens (non-military) residing outside of the United States who are of
              voting age.

When we use the term “Service member,” we mean it to only include all DoD military
and civilian personnel and their spouses and dependents.


DoD Guidance
DoD Instruction 1000.04, “Federal Voting Assistance Program,” September 13, 2012
(FVAP DoDI) reissued DoD Directive 1000.4 as a DoD Instruction to establish policy
and assign responsibilities for the FVAP in accordance with UOCAVA. It established
policy and assigned responsibilities for the development and implementation of
Installation Voter Assistance (IVA) offices in accordance with 10 U.S.C. § 1566a (2006).
The instruction also established policy and assigned responsibilities for the development
and implementation, jointly with each state, of procedures for persons to apply to
register to vote at recruitment offices of the Military Services in accordance with
42 U.S.C. § 1973gg-5 (2012).

The FVAP DoDI is applicable to the Office of the Secretary of Defense, all Military
Departments, and the DoD IG, as well as other organizational entities within the DoD.
It requires the Military Service IGs to annually review their VAP and submit a copy of
the report to the DoD IG by January 31.




                                                                                         DODIG-2014-051 │ 3
Introduction



                 Service Guidance
                 Each Uniformed Service has its own VAP to implement the law and DoD policy.
                 Service policy documents governing the Army, Navy, Air Force, and Marine Corps VAPs
                 are as follows:

                          •	 Army     Regulation    608-20,     “Army    Voting    Assistance   Program,”
                             October 28, 2004, (Army VAP regulation) and Army Voting Action Plans for
                             2013, and 2014;

                          •	 Office of the Chief of Naval Operations Instruction 1742.1B, “Navy Voting
                             Assistance Program,” May 15, 2007, (Navy VAP regulation) and the Navy
                             Voting Action Plans for 2011-2012, and 2014-2015;

                          •	 Air    Force   Instruction    36-3107,     “Voting    Assistance   Program,”
                             September 10, 2003, and revised and reissued on February 27, 2014,
                             (Air Force VAP regulation) and Air Force Voting Action Plans for 2012-2013,
                             and 2014-2015; and

                          •	 Marine Corps Order 1742.1B, “Voting Assistance Program,” April 1, 2013,
                             (Marine Corps VAP regulation) and Marine Corps Voting Action Plan for 2014.

                 The Services supplement their VAP regulations with regularly updated Voting Action
                 Plans. The plans provide some lower level guidance and serve as interim guidance on
                 voting assistance until the next revision of the Service VAP regulations.


                 Scope and Methodology
                 See Appendix A.




4 │ DODIG-2014-051
                                                                 Part I. Military Service VAP Compliance




Part I
Military Service VAP Compliance



The Service IGs reported to the DoD OIG on the results of their CY 2013 VAP compliance
and effectiveness in accordance with 10 U.S.C. § 1566 (2006). The DoD OIG reviewed the
results to determine the effectiveness and compliance of Service VAPs in accordance with
applicable laws and regulations. The following sections will discuss the reports.




                                                                                        DODIG-2014-051 │ 5
                                                         Army Voting Assistance Program Compliance




Army Voting Assistance Program Compliance
The United States Army Inspector General Agency (Army IG) issued its “Calendar Year
2013 Annual Report of the U.S. Army Compliance with Department of Defense (DoD)
Federal Voting Assistance Program (FVAP) requirements” (Army IG 2013 VAP Report).
As reflected in a consolidation of compliance data, from sampled Army organizations,
provided from command IG Army VAP assessments, the Army IG reported that the
Army complied with the Army VAP Regulation and FVAP DoDI. It was also reported that
installation commanders, the Army Voting Action Officer, Installation Voting Assistance
Officers (IVAOs), and Unit Voting Assistance Officers (UVAOs) continue to work together
to improve the Army VAP.

The Army IG 2013 VAP Report reflects responses from 24 installations encompassing
845 organizations across 7 commands. Additionally, the report included results from
391 organizations within the U.S. Army Recruiting Command related to voting
requirements for enlistees. A rotational system was used by the Army IG to determine
the major commands to be inspected over a four-year election cycle. In a four-year
cycle, each Army command is inspected at least twice, while some are inspected
annually. The report concluded that the Army continues to enable and encourage
Soldiers, Department of the Army civilians, family members, and contractors to fully
participate in the American election process.

The Army IG developed a standardized inspection tool based on the FVAP DoDI. This
inspection tool was provided to select command IGs who, in turn, distributed the tool
within their subordinate organizations as part of their annual VAP assessments. The
Army IG 2013 VAP Report provided compliance assessments in six specific categories:
staffing, training, material distribution, communication and information network,
commander/installation-level involvement, and VAP outreach metrics.

As discussed, the Army IG 2013 VAP Report stated the Army VAP complied with DoD
and Army VAP requirements. However, there were two instances where the Army
reported that they applied corrective actions to improve compliance in 2014 and beyond.

        •	 Confusion existed among the UVAOs regarding the standard for staffing
           more than one Voting Assistance Officer (VAO) based on the number of
           personnel in a given unit. The FVAP DoDI and Army VAP regulation stated
           that the Services shall designate a UVAO within each unit of 25 or more
           permanently assigned members with an additional UVAO assigned for
           each additional 50 members above the 25-member base. The Army Voting



                                                                                      DODIG-2014-051 │ 7
Army Voting Assistance Program Compliance



                             Action Plan 2013 included this standard and added additional language
                             that stated commanders may adjust the ratio of VAOs to the number of
                             personnel assigned to a given unit to meet local conditions. The Army
                             Voting Action Officer stated they will continue to revise the language in the
                             Army Voting Action Plan to better reflect DoD and Army VAP regulations.
                             (The Army IG 2013 VAP report stated that 94 percent of inspected units
                             complied with the VAO staffing requirement.)

                          •	 Confusion existed among the UVAOs regarding the standard for when
                             VAOs should receive training. The Army Voting Action Plan 2013 stated
                             that VAOs should be trained within 30 days of appointment. The FVAP DoDI
                             states that VAOs should be trained prior to assignment, not within 30 days.
                             The Army Voting Action Officer took corrective action and adjusted the
                             language in the Army Voting Action Plan 2014 to reflect the training
                             requirements stated in the FVAP DoDI. (The Army IG stated in the Army
                             IG 2013 VAP report that 89 percent of inspected units complied with the
                             VAO training requirements.)

                 The DoD OIG concured with the Army IG determination that the Army was compliant
                 with VAP statutes and regulations. However, the DoD OIG’s review of the Army IG
                 2013 VAP Report identified additional areas where the Army VAP did not meet all DoD
                 and Army-level requirements. These areas included tracking and reporting certain
                 VAP outreach metrics, developing standardized e-mail addresses for UVAOs, and
                 documenting duty performance in VAO evaluation reports. The issues are discussed
                 further in Part II, Observations 4, 5, and 6 of this report.

                 In addition, the Army had not completed agreed upon recommendations from DoD IG
                 Report No. DODIG-2013-074, “Assessment of Voting Assistance Programs for Calendar
                 Year 2012,” April 29, 2013.       Specifically, as of February 2014, the Army had not
                 provided criteria associated with a standardized definition of an installation for the
                 purpose of voting assistance nor updated the Army VAP Regulation to reflect all current
                 requirements in DoD FVAP guidance. These issues are also discussed in further detail in
                 Part III, Follow-up on Prior Observations and Recommendations.




8 │ DODIG-2014-051
                                                                  Navy Voting Assistance Program Compliance




Navy Voting Assistance Program Compliance
The Naval Inspector General (Navy IG) issued its “Report of Assessment of Navy Voting
Assistance Program for CY 2013” (Navy IG 2013 VAP report). The Navy IG stated that
the Navy’s VAP was compliant and effective based on the VAP requirements outlined in
UOCAVA, FVAP DoDI, and the Navy VAP regulation.

The Navy IG 2013 VAP report stated that the Navy IG “independently assessed compliance
with FVAP DoDI during CY13’s scheduled Area Visits and Command Inspections through
on-site interviews with UVAOs and IVAOs.” In addition, each Echelon 2 Command IG
completed a Self-assessment using a Navy developed checklist.

The Navy IG utilized data from the Voting Information Management System to support
this assessment. They reviewed a sampling of approximately 70 percent of all Navy
commands listed in the Standard Naval Distribution List for compliance with key program
elements. Additionally, the Navy IG based their assessment on direct findings from
three Echelon 2 Command Inspections and three geographic Area Visits.

The Navy IG 2013 VAP report stated “while minor discrepancies are found and corrected
at commands during our visits, our principal focus is to ensure that the program has
mechanisms in place that continue to identify and correct discrepancies identified
through self-assessments and inspections by higher echelons.”

The Navy noted two minor discrepancies:

          1.	     Not all UVAOs were designated in writing, as required in the FVAP DoDI.2
                  Eighty-nine percent were designated in writing. The Navy stated that they
                  will use the Navy Voting Action Plan 2014-2015 to remind UVAOs and IVAOs
                  of this requirement. The Navy IG reported that it will stress this requirement
                  during their 2014 area visits.

          2.	     Not all UVAOs had completed required FVAP training as required by the
                  FVAP DoDI.3 Ninety five percent completed the training. A 2014 FVAP VAO
                  workshop training series was in progress. The Navy Voting Program Office
                  will follow up to ensure that all command VAOs complete the training.




	2	
      DoDI 1000.04, Enclosure 4, paragraph 2 (f).
	3	
      DoDI 1000.04, Enclosure 4, paragraph 2 (f), (1).




                                                                                               DODIG-2014-051 │ 9
Navy Voting Assistance Program Compliance



                 The Navy IG 2013 VAP report provided the requested metrics regarding voting
                 assistance. Metrics were gathered from in-person requests for assistance, based on a
                 “snapshot” measure of Navy end-strength. However, the metrics did not reflect the use
                 of the FVAP website for requesting assistance.

                 The DoD OIG concured with the Navy IG that the Navy did have a VAP, appropriately
                 assigned personnel to VAP duties, conducted oversight of the VAP, identified areas
                 for improvement, and implemented corrective actions. Therefore, we agree with the
                 Navy IG determination that the Navy was compliant with VAP statutes and regulations.

                 The DoD OIG review identified two areas within the Navy VAP Report that indicated
                 the Navy may have not met public law or DoD requirements. The Navy did not have
                 standardized e-mail addresses for UVAOs, consistent with the requirements of the
                 FVAP DoDI, “Federal Voting Assistance Program (FVAP),” September 13, 2012. Further
                 discussion is at Part II, Observation 5. Additionally, the Navy had discontinued the
                 requirement for ensuring voting assistance duties were recorded on personnel
                 evaluations. Documentation of voting duties in VAO performance evaluations was not
                 completed as required. Further discussion is at Part II, Observation 6.




10 │ DODIG-2014-051
                                                          Air Force Voting Assistance Program Compliance




Air Force Voting Assistance Program
Compliance
The U.S. Air Force Inspector General (Air Force IG) issued its “Annual United States
Air Force (USAF) Federal Voting Assistance Program (FVAP) Inspection Report - 2013”
(Air Force IG 2013 VAP report) which provided a summary of their assessment of
Air Force compliance with VAP statutes and requirements.

After reviewing the results of the Major Command IG inspections and the Air Force
VAP, the Air Force Service Voting Action Officer concluded that the Air Force was in
full compliance with current VAP law and DoD FVAP policy. The Air Force Service
Voting Action Officer informed the DoD OIG that an inspection checklist was prepared
to provide Wing Inspection Teams, Installation Commanders, and IVAOs with a full
complement of resources at each level to adequately assess and guide the Air Force VAP.

The Air Force IG reported that they inspected their VAP for CY 2013 during Major
Command IG inspections at 3 Numbered Air Forces, 42 Wings, 9 Groups, 12 Squadrons,
3 Detachment/Flights, and 6 Field Operating Agencies/Direct Reporting Units. There
were 24 reported deficiencies noted in 10 of the 75 units inspected. The Major Command
IG evaluated the Air Force VAP by conducting personal interviews with IVAOs and
UVAOs that reviewed program implementation and management.

Of the 24 deficiencies identified by the Air Force, corrective actions had been taken
to address and close a number of deficiencies. Several deficiencies were open with
no explanation in the report or responses to requests for clarifications indicating that
corrective actions have been or will be taken to close these remaining deficiencies.
The deficiencies reported were an IVAO staffing issue, untrained IVAOs and UVAOs,
UVAOs that did not deliver Standard Form 76, “Voter Registration and Absentee Ballot
Request Federal Post Card Application” (FPCA) to all assigned personnel and quarterly
reports not submitted in the prescribed timeframe. These deficiencies are discussed
in further detail in Part II, Observations 1, 2, and 3.

Overall, the DoD OIG concured that the Air Force had an active VAP, assigned
personnel to accomplish VAP duties, conducted an inspection and review of the VAP,
identified areas for correction or improvement, and implemented corrective actions
to some of the deficiencies identified. As a result, Air Force Service members had the
resources necessary to exercise their right to vote. Therefore, the DoD OIG agreed with




                                                                                        DODIG-2014-051 │ 11
Air Force Voting Assistance Program Compliance



                 the Air Force IG’s expressed confidence that the Air Force was compliant with VAP
                 statutes and regulations.

                 The Air Force issued a new “Air Force Voting Action Plan, 2014-15” on February 10, 2014,
                 which addressed new VAP requirements directed by current statutes and DoD
                 regulations. The Air Force also published a new “Air Force Instruction 36-3107” on
                 February 27, 2014, that addressed statutory and DoD regulatory VAP requirements
                 that were added since the prior Air Force VAP instruction was published on
                 September 10, 2003. The new Air Force Instruction will be discussed in further detail
                 in Part III, Outdated Regulatory Requirements.

                 We provide a follow-up on prior observations and recommendations and discuss
                 measuring FVAP effectiveness in further detail in Part III, Follow-up on Prior
                 Observations and Recommendations.




12 │ DODIG-2014-051
                                                   Marine Corps Voting Assistance Program Compliance




Marine Corps Voting Assistance Program
Compliance
The Inspector General of the Marine Corps (Marine Corps IG) issued its “Annual
Assessment of the Marine Corps Voting Assistance Program for Calendar Year 2013”
(Marine Corps IG 2013 VAP report) in accordance with 10 U.S.C. § 1566 (2006). The
Marine Corps IG concluded in their report that the Marine Corps VAP complied with the
FVAP DoDI, and Marine Corps VAP regulation, and that its annual assessment verified
the Marine Corps had an effective VAP.

The Marine Corps IG stated that the Marine Corps employed a continuous assessment
methodology to assess the Marine Corps VAP for compliance and effectiveness as
well as to determine if Installation Voter Assistance (IVA) offices are operational. The
Marine Corps IG stated that the Marine Corps VAP inspections used an ongoing cycle of
inspections for every Marine Forces Command on a biennial basis and for every Marine
Expeditionary Force, installation, and Major Subordinate Command on a triennial
basis. In addition, each commanding general had their own Commanding General
Inspection Program that inspected their units biennially.

To ensure oversight of the Marine Corps VAP, both the Marine Corps IG and Commanding
General Inspection Program conducted inspections using a standardized Functional
Area Checklist 210. Both the Marine Corps IG and the command inspection processes
established that the Marine Corps VAP had VAOs in place by conducting interviews
with Major Command Voting Officers, IVAOs, UVAOs, commanding officers, and Marines
randomly selected from Marine units.

The Marine Corps inspection teams reviewed documents and procedures to ensure
compliance with Marine Corps orders and directives as well as VAP statutes and
regulations. The Marine Corps inspection teams also inspected facilities to ensure
that voting assistance materials were displayed in accordance with Marine Corps VAP
regulation. Each inspection was graded as: Mission Capable, Mission Capable with
discrepancies, Mission Capable with findings, or Non-mission Capable. The Marine Corps
IG found no discrepancies but some units required minor corrections to be implemented
on-the-spot, even though all were determined to be programmatically compliant.
Among the minor corrections implemented at Marine Corps units:

        •	 Outdated appointment letters.

        •	 Late submission of quarterly reports.



                                                                                      DODIG-2014-051 │ 13
Marine Corps Voting Assistance Program Compliance



                 The Marine Corps IG concluded in their Marine Corps IG 2013 VAP report that their
                 inspection results and quarterly voting reports confirm that “the Marine Corps’ VAP
                 operates in accordance with established policies and procedures and is effective in
                 assisting eligible voters.”

                 The Marine Corps IG indicated that Marine Corps Order 1742.1A, “Voter Registration
                 Program,” May 14, 2002, was updated as a direct result of the issuance of the
                 FVAP DoDI. The Marine Corps IG stated that the new Marine Corps VAP regulation,
                 published on April 1, 2013, incorporated best practices to improve accuracy and
                 reporting timeliness and reflected new capabilities supporting the program with respect
                 to communication and information networks.

                 The DoD OIG concured that the Marine Corps had an active VAP, had appropriately
                 assigned personnel to VAP duties, and conducted continuous oversight of the VAP.
                 While no discrepancies were reported for CY 2013, past Marine Corps VAP assessments
                 reported discrepancies and corrective actions which confirmed program oversight.
                 The DoD OIG agreed with the Marine Corps IG determination that the Marine Corps
                 was compliant with VAP statutes and regulations with the exception of an issue
                 regarding the implementation of requirement to use standardized e-mail addresses for
                 UVAOs which is addressed in Part II, Observation 5.

                 In addition, there were two unresolved follow-up issues from the prior DoD IG
                 assessment report (DoD IG Report No. DODIG-2013-074, “Assessment of Voting Assistance
                 Programs for Calendar Year 2012,” April 29, 2013):

                          •	 Development of supporting criteria for the Marine Corps definition of an
                             installation for the purposes of voting assistance.

                          •	 Measurement of Marine Corps VAP program effectiveness.

                 These unresolved Marine Corps VAP issues are further discussed in Part III, Follow-up
                 on Prior Observations and Recommendations.




14 │ DODIG-2014-051
                                                                                   Part II. Observations




Part II
Observations



The following observations cover areas associated with issues in DoD VAP implementation:

     1.	   Lack of an Established and Sustained Installation Voter Assistance Office

     2.	   Lack of Proper Distribution of Federal Post Card Applications

     3.	   Lack of Command Oversight

     4.	   Incomplete Tracking of Voting Assistance Program Outreach Metrics

     5.	   Use of Standardized E-mail Addresses for Unit Voting Assistance Officers

     6.	   Voting Assistance Officer Duties Not Addressed in Performance Evaluations




                                                                                       DODIG-2014-051 │ 15
                                                                                               Observation 1




Observation 1
Lack of an Established and Sustained Installation Voter
Assistance Office
An IVA office was not established and sustained by the 66 Air Base Wing at Hanscom
Air Force Base.

This occurred because the 66 Air Base Wing Commander at Hanscom Air Force Base did
not sustain an IVA office during building renovations.

As a result, Service members at Hanscom Air Force Base were not provided the level of
voting assistance required by statute and regulation.



Applicable Criteria
         •	 MOVE Act

         •	 FVAP DoDI, enclosure 4, section 2.c

         •	 Air Force Policy Directive 36-31, “Personal Affairs,” April 2, 2012, section 2.1

         •	 Air Force VAP regulation

Discussion
The Air Force IG identified a “minor deficiency” in which the 66 Air Base Wing
Commander did not establish and sustain an IVA office.

A significant provision of the MOVE Act and the FVAP DoDI was a requirement for
the Military Services to establish an IVA office on every installation under their
jurisdiction to perform certain voting assistance functions.          This requirement is
not addressed in the Air Force VAP Regulation (2003). The Air Force IG stated that
Air Force Policy Directive 36-31, “Personal Affairs,” April 2, 2012, section 2.1, places
the responsibility for establishing an IVA office on the Installation Commanders. In
DoD IG Report No. DoDIG-2012-123, “Assessment of the Federal Voting Assistance
Program Office Implementation of the Military and Overseas Voter Empowerment
Act,” August 31, 2012, the Air Force reported that their installations had established
functioning IVA offices as required by law. In March 2012, the FVAP website identified
an IVA office at Hanscom Air Force Base, and the DoD OIG established contact
via telephone.




                                                                                           DODIG-2014-051 │ 17
Observation 1



                 However, according to the Air Force IG, the Hanscom Air Force Base accidentally closed
                 the IVA office during building renovations and did not reinstitute it. This deficiency
                 was discovered during the Major Command IG inspection.               Further, while the IVA
                 Office was reported to have previously existed, this was not verified by the Air Force IG
                 until at least August 2012 to when the Air Force IG inspected the 66 Air Base Wing in
                 June 2013. In that timeframe, the 66 Air Base Wing Commander did not maintain full
                 compliance with FVAP DoDI and Air Force Policy Directive 36-31 regarding establishing
                 and sustaining an IVA office. The Air Force IG reported that the impact of not having
                 an established and sustained IVA office was that Service members were not provided
                 the level of voting assistance required by statute and regulation.

                 The Air Force IG reported that once the Major Command IG inspection identified
                 the deficiency, the IVA office was reestablished. However, the 66 Air Base Wing was
                 still working on computer configuration issues in order to restore the full functional
                 capabilities of the IVA office.


                 Recommendations, Management Comments, and
                 Our Response

                          Recommendation 1.a
                          The Commander, Air Force Materiel Command ensure that a fully
                          functioning Installation Voter Assistance office is established and
                          sustained at Hanscom Air Force Base.


                 Commander, Air Force Materiel Command
                 As of the publication of this report, the DoD OIG had not received a formal response
                 regarding Recommendation 1.a from the Commander, Air Force Materiel Command, or
                 an Air Force organization authorized to respond on their behalf.


                 Our Response
                 The DoD OIG requests that the Commander, Air Force Materiel Command respond to
                 Recommendation 1.a in the final report by April 30, 2014, providing their plan to ensure
                 that a fully functioning Installation Voter Assistance office is established and sustained
                 at Hanscom Air Force Base or other bases within their command.




18 │ DODIG-2014-051
                                                                                       Observation 1




        Recommendation 1.b
        The Air Force Director of Services ensure Air Force compliance with
        the Department of Defense Instruction 1000.04, “Federal Voting
        Assistance Program (FVAP),” September 13, 2012, enclosure 4, section
        2.c. requirement to establish an Installation Voter Assistance office on
        each military installation.


Air Force Director of Services
The Air Force Director of Services concurred with Recommendation 1.b, and provided
the Air Force plan for addressing Recommendation 1.b through enhanced coordination
with and oversight of Air Force IVA offices, as well as publishing updated Air Force
VAP Regulations and guidance.


Our Response
The comments of the Air Force Director of Services were responsive to Recommendation
1.b. No further comment is required.




                                                                                   DODIG-2014-051 │ 19
                                                                                             Observation 2




Observation 2
Lack of Proper Distribution of Federal Post
Card Applications
The Air Force did not distribute FPCAs to all Service members at several Air Force
installations. Distribution of the FPCA is required by FVAP statutes, the FVAP DoDI,
the Air Force VAP regulation, and the “Air Force Voting Action Plan 2012-2013,” dated
November 6, 2012.

This occurred because Air Force UVAOs did not apply due diligence in the distribution
or verification of delivery of FPCA to all Service members in the Air Force.

As a result, some Service members may have been hindered in obtaining voting
assistance.



Applicable Criteria
         •	 FVAP DoDI

         •	 Air Force VAP Regulation, September 10, 2003 and reissued on
              February 27, 2014

         •	 Air Force Voting Action Plan – 2012-13

         •	 Air Force Voting Action Plan, 2014-15

Discussion
The FVAP DoDI requires the Services to develop a system to directly deliver FPCAs to
eligible voters by January 15 of each year.

The FPCA is a U.S. Government form that can be used by Service members to register
to vote, to request an absentee ballot, or to change their address or record. The FPCA
can be used by Service members as an alternative method to submitting state or local
municipality voter forms.

The Air Force Voting Action Plan for 2012-2013 implements the FVAP DoDI and
requires distribution of the FPCA to eligible voters at set intervals. The Air Force Major
Command IG identified nine separate instances within the Air Combat Command,
the Air Force Materiel Command, and the Air Force Special Operations Command in




                                                                                        DODIG-2014-051 │ 21
Observation 2



                 which UVAOs did not deliver the FPCA to all assigned personnel or did not use read
                 or delivery receipts as part of their confirmation of the successful e-mail distribution
                 of the forms. The Air Force IG stated that some of the units with deficiencies were
                 implementing corrective actions.


                 Recommendations, Management Comments, and
                 Our Response


                         Recommendation 2
                         The Air Force Director of Services ensure that Unit Voting Assistance
                         Officers are trained to implement the requirement to complete delivery
                         of Standard Form 76, “Voter Registration and Absentee Ballot Request
                         Federal Post Card Application” to all Service members as outlined
                         in Air Force Instruction 36-3107, “Voting Assistance Program,”
                         February 27, 2014, and the most current version of the Air Force
                         Voting Action Plan.


                 Air Force Director of Services
                 The Air Force Director of Services concurred with Recommendation 2, and provided the
                 Air Force plan for ensuring complete delivery of FPCAs as well as updating Air Force VAP
                 Regulations and guidance.


                 Our Response
                 The comments of the Air Force Director of Services were responsive to
                 Recommendation 2. No further comment is required.




22 │ DODIG-2014-051
                                                                                            Observation 3




Observation 3
Lack of Command Oversight
Some Air Force IVA offices had multiple VAP compliance deficiencies.

This occurred because Air Force Installation Commanders did not provide effective
emphasis on and oversight of Air Force VAPs.

As a result, some Service members may have been hindered in obtaining voting
assistance.



Applicable Criteria
         •	 FVAP DoDI, enclosure 4

         •	 Air Force VAP Regulation, September 10, 2003 and reissued on
              February 27, 2014

         •	 Air Force Instruction 90-201, “The Air Force Inspection System,”
              August 2, 2013

Discussion
The Air Force IG 2013 VAP report inspected 75 units for FVAP compliance and found
24 deficiencies reported across 10 units. The 75 units inspected by the Air Force IG
were located at 54 installations and assigned to 12 Air Force Major Commands.
Nine of the 54 installations (approximately 17 percent) had deficiencies. Three of the
nine installations (approximately 33 percent) accounted for 13 of the 24 deficiencies
(approximately 54 percent). Additionally, 6 of the 12 major commands (50 percent)
inspected had deficiencies. Air Force Materiel Command alone accounted for 10 of the
24 deficiencies (approximately 42 percent).

The DoD OIG reviewed the Air Force IG 2013 VAP report and found that several of these
deficiencies were indicative of ineffective Command emphasis or oversight of the local
implementation of the Air Force VAP. Examples of some of these deficiencies include:

         •	 As discussed in Observation 2 of this report, Air Force Major Command IGs
              identified nine separate units, under three commands, where UVAOs did
              not deliver or verify delivery of the FPCA to all assigned personnel. This
              occurred because Air Force UVAOs did not apply due diligence in the
              distribution or verification of delivery of FPCA to all Service members.


                                                                                         DODIG-2014-051 │ 23
Observation 3



                          •	 At four installations, VAOs did not receive appropriate, timely training to
                            complete their duties or could not provide records that the training was
                            completed. At 1 installation, the IVAO could not confirm if 34 of the 41
                            assigned UVAOs (approximately 83 percent) had received required training.

                          •	 Commanders did not ensure the IVAOs coordinated with the Military
                            Personnel Section during in-processing procedures for military personnel
                            and civilians. The Air Force IG specifically reported that the IVAO was not
                            included on the Military Personnel Section in-processing checklist for newly
                            arriving personnel or as a briefer during “Right Start” or “INTRO” programs.

                          •	 Several IVAOs did not ensure that a plan for Armed Forces Voters Week/
                            Overseas Citizens Voters Week and Absentee Voters Week was sent to the
                            Air Force Senior VAO by the suspense date, as established in the Air Force
                            Voting Action Plan.

                          •	 Several IVAOs did not gather metrics from UVAOs and submit quarterly
                            “Measures of Effect and Performance” reports and the end-of-year report by
                            required suspense dates.

                 Updated Air Force Inspection System
                 The Air Force IG stated that Air Force units were inspected on a 2- to 3-year inspection
                 cycle for active duty units and a 5-year inspection cycle for Reserve units.        The
                 Air Force IG further stated that the inspection cycle will be changed to comply with the
                 recently published Air Force Instruction 90-201, “Air Force Inspection System,” dated
                 August 2, 2013. The Air Force IG stated that in CY 2014, every Wing would have a
                 formal annual VAP inspection conducted by either a Wing or Major Command IG team.
                 The updated Air Force Instruction 90-201 mandated that each Wing implement a unit
                 self-assessment program and use the required Web-enabled self-assessment tool
                 to document all self-assessment results. The Air Force IG stated that Air Force line
                 organizations will develop standardized checklists to be uploaded into the required
                 Web-enabled, self-assessment tool for field units to demonstrate compliance with
                 public law, DoD, and Air Force directives. The Air Force Service Voting Action Officer
                 stated that a revised VAP checklist that identified roles and responsibilities for all
                 levels of VAOs was submitted to the Air Staff for review.

                 The DoD OIG concluded that proper and adequate command emphasis and oversight
                 would likely reduce the occurrence of Air Force VAP deficiencies. Overall, the DoD OIG
                 observed that the Air Force is taking appropriate actions and implementing necessary and
                 constructive improvements to comply with VAP requirements. However, the Air Force



24 │ DODIG-2014-051
                                                                                   Observation 3



Commands need to ensure that IVAOs and UVAOs comply with directives by providing
appropriate command emphasis and oversight in order to ensure Service members
receive required voting assistance and guidance.


Recommendations, Management Comments, and
Our Response

        Recommendation 3
        The Air Force Director of Services reemphasize the requirement for
        commanders to provide effective command oversight of Air Force
        Voting Assistance Programs to ensure compliance with Department
        of Defense Instruction 1000.04, “Federal Voting Assistance Program
        (FVAP),” September 13, 2012, and Air Force Instruction 36-3107,
        “Voting Assistance Program,” February 27, 2014.



Air Force Director of Services
The Air Force Director of Services concurred with Recommendation 3, and provided
the Air Force plan for engaging in a “Command Emphasis Campaign” regarding the
Air Force VAP.


Our Response
The comments of the Air Force Director of Services were responsive to
Recommendation 3. No further comment is required.




                                                                              DODIG-2014-051 │ 25
                                                                                              Observation 4




Observation 4
Incomplete Tracking of Voting Assistance Program
Outreach Metrics
The Army did not effectively track and report why Service members requested FPCA
and the associated metrics for each reason.

This occurred because the Army did not have a requirement for VAOs to track the specific
reasons and associated metrics regarding why Service members requested the FPCA.

As a result, the Army could not provide specific data on the number of FPCAs that were
requested for voter registration or for change of address for voting purposes. Further, the
Army could not actively report the extent of outreach between the Army VAOs and Service
members requesting voting assistance.



Discussion
In July 2013, DoD OIG representatives met with Congressional staff regarding DoD’s
implementation of the FVAP. The staff expressed an interest in knowing the number of
Service members that IVAOs and UVAOs were directly supporting. In September 2013,
the DoD OIG met with the Service IGs and Service VAOs and developed an agreed upon
format for reporting on voting compliance in the Service IGs’ 2013 VAP reports. The
report format included metrics to measure voting outreach that included tracking and
reporting the number of Service members who requested voting assistance for voter
registration, absentee ballots, change of address, and the total number of FPCA requests
for the calendar year.

The Army directed service members to fill out a FPCA for multiple reasons such as
voter registration and for change of address.        In 2013, the Army reported that
47,409 FPCAs were requested through Army VAOs, recruiters, and other service
representatives. While the Army did track the total number of FPCAs requested, the
Army stated that it did not disseminate the DoD OIG request for the VAP outreach
metrics to the IVAOs and UVAOs to track and report the reasons why service members
requested FPCAs. As a result, the Army did not track the number of Service members
who requested a FPCA for a change of address for voting purposes and reported this
metric as “not available.”




                                                                                         DODIG-2014-051 │ 27
Observation 4



                 In contrast, although not required by law or regulation, the Navy, Air Force, and
                 Marine Corps did track and report all VAP outreach metrics for CY 2013.

                 The Army Voting Action Plan 2013, published in November 2012, did not include a
                 requirement for the IVAOs and UVAOs to collect this data. The Army addressed this
                 deficiency in the Army Voting Action Plan 2014, which included a requirement for
                 IVAOs and UVAOs to track and report the number of service members who requested
                 assistance for voter registration, absentee ballot requests, and change of address
                 notifications. As the Army collects this data it will be able to measure the voting
                 outreach metrics that it agreed to provide to the DoD OIG.


                 Recommendations, Management Comments, and
                 Our Response

                          Recommendation 4
                          The Adjutant General, United States Army ensure that future versions
                          of the Army Voting Action Plan include requirements for Installation
                          and Unit Voting Assistance Officers to track and report the reasons
                          why Service members requested voting assistance or a Standard
                          Form 76, “Voter Registration and Absentee Ballot Request Federal Post
                          Card Application,” and associated metrics.


                 The Adjutant General, United States Army
                 The Adjutant General, United States Army, non-concurred with Recommendation 4. The
                 Adjutant General, United States Army stated the requested metrics were included in
                 the Army Voting Action Plan 2012, but not the Army Voting Action Plan 2013 because
                 CY 2013 was not an election year. The Army stated that FVAP metrics were collected
                 and reported to the FVAP Office except for the metric for “change of address for voting
                 purposes,” which should be indicated as not available for CY 2013.

                 The Adjutant General, United States Army further stated that the Army has put systems
                 in place to ensure that VAP metrics reporting requirements include requirements for
                 IVAOs and UVAOs to track and report the reasons why Service members request voter
                 assistance, voter registration, absentee ballots, and FPCAs. The Army stated that these
                 systems are addressed in the Army Voting Action Plan 2014 and that the corrective
                 action taken by the Army is sufficient.




28 │ DODIG-2014-051
                                                                                          Observation 4



Our Response
Comments from the Adjutant General, United States Army partially addressed the
recommendation. The DoD OIG finds that while the Army non-concurred, in fact, they
had responded to the intent of the observation and recommendation, and initiated
corrective action.

As stated in the discussion section of Observation 4, the Army did note the deficiency
in tracking and reporting all of the agreed upon VAP outreach metrics, and added a
requirement for IVAOs and UVAOs to track and report the number of Service members
who requested assistance for voter registration, absentee ballots, and changes of
address in the Army Voting Action Plan 2014. The DoD OIG commends the Army for
being proactive and taking corrective action to ensure appropriate tracking and
reporting of the VAP outreach metrics by IVAOs and UVAOs. However, the Army stated
that including the requirement in the Army Voting Action Plan 2014 is sufficient and
no further action is required. Ensuring this requirement is emphasized in future Army
Voting Action Plans should raise the awareness of tracking these metrics with IVAOs
and UVAOs.      We request the Adjutant General, United States Army respond to
Recommendation 4 in the final report by April 30, 2014, with a plan to ensure continued
emphasis on the tracking and reporting of voting outreach metrics in subsequent
Army Voting Action Plans.




                                                                                     DODIG-2014-051 │ 29
                                                                                            Observation 5




Observation 5
Use of Standardized E-mail Addresses for Unit Voting
Assistance Officers
The Army, Navy, Air Force, and Marine Corps did not have standardized e-mail addresses
for UVAOs, consistent with the requirements of the FVAP DoDI.

The Services reported that there were challenges in information technology, high
personnel turnover rates, and maintaining UVAO records.

As a result, Service members may have been impeded in contacting their UVAO to
obtain voting assistance.



Applicable Criteria
         •	 FVAP DoDI, enclosure 4, section 2.r

Discussion
The FVAP DoDI, in enclosure 4, section 2.r requires that the Services:

            establish and maintain a standard e-mail address in the form
            Vote@(unit).(Service).mil, Vote.(unit)@(Service).mil or similar
            format to contact all UVAOs within that Service.

As recent as February 18, 2014, the DoD FVAP Office had stated that the requirement
had applied to all VAOs, including those at the unit level.

A review of Service IG VAP reports as well as the FVAP and Service VAP websites indicated
that the Services did not meet the regulatory requirement to have standardized e-mail
addresses for all UVAOs. The Services stated that several factors contributed to the
inability to meet this requirement, such as:

         •	 established e-mail systems could not support the format identified in the
            requirement.    An example provided by the Army Voting Action Officer
            shows the difficulty the Amy had in meeting the provided e-mail format,
            usarmy.knox.hrc.mbx.tagd-voting-questions@mail.mil;




                                                                                       DODIG-2014-051 │ 31
Observation 5



                         •	 high turnover rates existed among UVAOs within the Navy and Marine Corps
                            making it difficult for units to provide VAO continuity for voting assistance;
                            and

                         •	 maintaining up-to-date e-mail records for the more than 13,000 UVAOs
                            across the Services, was challenging.

                 However, the Services had developed procedures to ensure Service members had
                 the ability to obtain voting assistance through e-mail. For example, the Marine Corps
                 developed a centralized headquarters-level e-mail address at vote@usmc.mil.          The
                 Marine Corps stated that they relied on this centralized e-mail to receive and be able
                 to directly respond to Service member e-mail requests for voting assistance from the
                 Marine Corps Headquarters level. The Army, Navy, and Air Force follow a similar
                 format, with the use of published IVAO e-mail addresses, relying on the IVAO as the
                 initial point of contact, who will forward Service Members’ e-mail requests for voting
                 assistance to an appropriate UVAO for a personal and timely response.

                 The DoD OIG developed a draft Recommendation 5 to address the Services’ compliance
                 with the requirement:

                            The Adjutant General, Army; Commander, Navy Installation
                            Command; Air Force Director of Services; and Deputy
                            Commandant of the Marine Corps for Manpower and Reserve
                            Affairs establish and maintain a standard e-mail address for Unit
                            Voting Assistance Officers consistent with the requirement of
                            DoD Instruction 1000.04, “Federal Voting Assistance Programs
                            (FVAP),” September 13, 2012, enclosure 4, section 2.r.

                 On February 27, 2014, 2 days after the DoD OIG provided a draft report to the FVAP
                 Office and Services for management comments, the FVAP Office met with Service
                 Voting Action Officers and discussed the Services’ difficulties in complying with the
                 FVAP DoDI requirement for standardized e-mail addresses for UVAOs.             After that
                 meeting, the Director, DoD FVAP Office, revised their interpretation of the requirement
                 for a standardized e-mail address for UVAOs by stating that the intent of the requirement
                 was to ensure that Service members were able to request voting assistance via e-mail
                 and receive a personal and timely response. The Director, DoD FVAP Office, stated
                 that the procedures developed by the Services appeared to have met the intent of
                 the requirement, provided that the Services regularly verify implementation of the
                 Services’ alternative and are found in compliance by their Service IGs. Further, the
                 Director stated that the FVAP Office intended to revise this requirement during



32 │ DODIG-2014-051
                                                                                             Observation 5



the next revision of the FVAP DoDI.            Consequently, the DoD OIG revised draft
Recommendation 5 from a request to implement the FVAP DoDI enclosure 4,
section 2.r. requirement, to a request to regularly verify implementation of the FVAP
Office approved Service level alternative procedures.


Revised Recommendation, Management Comments,
and Our Response

        Revised Recommendation 5
        The Adjutant General, United States Army; Commander, Navy
        Installations Command; Air Force Director of Services; and Deputy
        Commandant of the Marine Corps for Manpower and Reserve Affairs
        regularly verify the implementation of Federal Voting Assistance
        Program     Office-approved    Service-level    alternative   procedures
        to meet the intent of the standardized e-mail address for Unit
        Voting Assistance Officers requirement of Department of Defense
        Instruction 1000.04, “Federal Voting Assistance Programs (FVAP),”
        September 13, 2012, enclosure 4, section 2.r.


The Adjutant General, United States Army
The   Adjutant   General,   United    States    Army    non-concurred   with   the   draft
Recommendation  5 requirement to establish and maintain a standard e-mail address
for UVAOs. They stated that the Army has strict rules pertaining to the requirements
of e-mail addresses. Each Army e-mail address requires a certain set of nomenclatures
that do not meet the format outlined in FVAP DoDI, enclosure 4, section 2.r. The Army
gave the example: us.army.knox.hrc.mbx.tag-voting-questions@mail.mil to emphasize
one aspect of the difficulty of implementing this FVAP DoDI requirement.


Our Response
The FVAP Office stated that the current Army alternative procedures met the intent
of the standardized e-mail address for the UVAO requirement of the FVAP DoDI.
The DoD OIG therefore revised Recommendation 5 in accordance with the FVAP
Office’s new interpretation of FVAP DoDI enclosure 4, section 2.r, to require that the
Services regularly verify implementation of the FVAP Office-approved Service level
alternative procedures.




                                                                                        DODIG-2014-051 │ 33
Observation 5



                 The DoD OIG requests that the Adjutant General, United States Army, respond to
                 Revised Recommendation 5 in the final report by April 30, 2014, providing their plan
                 for verification of the implementation of FVAP Office-approved Army alternative
                 procedures to meet the intent of the standardized e-mail address for UVAOs requirement
                 of FVAP DoDI, enclosure 4, section 2.r.


                 Commander, Navy Installations Command
                 The Navy non-concurred with the draft Recommendation 5 requirement to establish
                 and maintain a standard e-mail address for UVAOs and stated in response that
                 their VAOs do not have special e-mail addresses. They were aware that there was a
                 requirement to maintain e-mail addresses at the unit-level, per DoD Instruction 1000.04,
                 enclosure 4., section 2.r.   The Navy stated that, along with other Service Voting
                 Action Officers, they have brought this issue to the FVAP’s attention as a possible
                 error. They find that creating unit-level e-mail addresses is impractical because many
                 commands have different e-mail systems, and this does not allow e-mail addresses
                 to be standardized at the unit-level. The Navy stressed that creating such e-mail
                 addresses is not useful because individual units are of such scale that people know
                 who their VAO is or how to find them; therefore, the VAOs don’t need a specific
                 e-mail address. Lastly, the Navy stated that because there are already so many VAOs,
                 maintaining e-mail accounts to keep up with personnel turnovers would be
                 very challenging.


                 Our Response
                 The FVAP Office stated that the current Navy alternative procedures met the intent
                 of the standardized e-mail address for UVAOs requirement of the FVAP DoDI. The
                 DoD OIG therefore revised Recommendation 5 in accordance with the FVAP Office’s
                 new interpretation of FVAP DoDI enclosure 4, section 2.r, to require that the Services
                 regularly verify implementation of the FVAP Office-approved, Service-level alternative
                 procedures. The DoD OIG requests that the Commander, Navy Installations Command
                 respond to Revised Recommendation 5 in the final report by April 30, 2014, providing
                 their plan for verification of the implementation of FVAP Office-approved Navy
                 alternative procedures to meet the intent of the standardized e-mail address for UVAOs
                 requirement of FVAP DoDI, enclosure 4, section 2.r.


                 Air Force Director of Services
                 The Air Force Director of Services non-concurred with the draft Recommendation 5
                 requirement to establish and maintain a standard e-mail address for UVAOs and stated in




34 │ DODIG-2014-051
                                                                                          Observation 5



response that they had submitted a request to the FVAP Office to change the requirement
in the FVAP DoDI to standardized e-mail addresses at the installation level instead
of the unit level.


Our Response
The FVAP Office stated that the current Air Force alternative procedures met the
intent of the standardized e-mail address for UVAOs requirement of the FVAP DoDI.
The DoD OIG therefore revised Recommendation 5 in accordance with the FVAP
Office’s new interpretation of FVAP DoDI enclosure 4, section 2.r, to require that the
Services regularly verify implementation of the FVAP Office-approved, Service-level
alternative procedures. The DoD OIG requests that the Air Force Director of Services
respond to Revised Recommendation 5 in the final report by April 30, 2014, providing
their plan for verification of the implementation of FVAP Office-approved Air Force
alternative procedures to meet the intent of the standardized e-mail address for UVAOs
requirement of FVAP DoDI, enclosure 4, section 2.r.


Deputy Commandant of the Marine Corps for Manpower and Reserve Affairs
The Marine Corps non-concurred with the draft Recommendation 5 requirement to
establish and maintain a standard e-mail address for UVAOs. They stated that they
interpreted the FVAP DoDI enclosure 4, section 2.r requirement to apply to the Service
level and not the unit level.


Our Response
The FVAP Office stated that the current Marine Corps alternative procedures met
the intent of the standardized e-mail address for UVAOs requirement of the FVAP DoDI.
The DoD OIG revised draft Recommendation 5 in accordance with the FVAP Office’s
new interpretation of FVAP DoDI enclosure 4, section 2.r, to require that the Services
regularly verify implementation of the FVAP Office approved Service-level alternative
procedures. The DoD OIG requests that the Deputy Commandant of the Marine Corps
for Manpower and Reserve Affairs respond to Revised Recommendation 5 in the final
report by April  30,  2014, providing their plan for verification of the implementation
of FVAP Office-approved Marine Corps alternative procedures to meet the intent
of the standardized e-mail address for UVAOs requirement of FVAP DoDI, enclosure 4,
section 2.r.




                                                                                     DODIG-2014-051 │ 35
                                                                                           Observation 6




Observation 6
Voting Assistance Officer Duties Not Addressed in
Performance Evaluations
Not all Army or Navy personnel designated as VAOs had performance evaluations that
commented on their VAO performance.

The Army and Navy Commanders did not comply with statute or Service VAP regulations
by providing sufficient command emphasis and oversight regarding voting assistance
requirements.

The Army and Navy cannot ensure that voting assistance was appropriately provided in
units where the VAO had not been rated on the performance of their voting assistance
duties.



Applicable Criteria
              •	 10 U.S.C. 1566 (f)(1) [2006]

              •	 FVAP DoDI

              •	 Army VAP Regulation

              •	 Navy VAP Regulation

              •	 Navy Bureau of Personnel Instruction 1610.10C, “Navy Performance
                  Evaluation System,” April 20, 2011

Discussion
Section 1566, title 10, U.S.C.4 states:

                  Performance evaluation reports pertaining to a member who has
                  been assigned to serve as a voting assistance officer shall comment
                  on the performance of the member as a voting assistance officer.

The FVAP DoDI does not address this requirement.




	4	
      10 U.S.C. § 1566 [2006](f)(1)




                                                                                        DODIG-2014-051 │ 37
Observation 6



                 Army VAP regulation5 states:

                                  Establish evaluation criteria for VAO performance and ensure
                                  that VAOs’ evaluation reports reflect how well they perform their
                                  voting assistance duties.

                 Additionally, this requirement was included in the Army Voting Action Plan 2013 and
                 the Army Voting Action Plan 2014.

                 The Army IG 2013 VAP report stated that 79 percent of inspected units within the
                 Army complied with the requirement to document VAO performance in evaluations.
                 While the Army did have some compliance with the requirement, opportunities exist to
                 improve the reporting of VAO performance in evaluations. The Army IG 2013 VAP report
                 recommended the Commander, U.S. Army Installation Management Command ensures
                 IVAO’s performance of duties are documented in their performance evaluations.

                 Navy VAP Regulations do not address the 10 U.S.C. § 1566(f)(1) [2006] requirement
                 to document VAO performance in evaluations. Navy Bureau of Personnel Instruction
                 1610.10C “Navy Performance Evaluation System,” April 20, 2011, paragraph 13-11
                 only implies evaluating additional/corollary duties such as paragraph 13-11.K. “Civic
                 Activities Beneficial to the Navy,” but does not specifically refer to VAO performance.

                 The DoD OIG review of the Navy IG 2013 VAP report found that the Navy did not document
                 VAO performance. The Navy Voting Action Officer stated it was not a requirement
                 to document VAO performance because the requirement was not addressed in the
                 FVAP DoDI and therefore not a requirement for the Navy VAP to follow.


                 Revised Recommendations, Management Comments,
                 and Our Response

                              Recommendation 6.a
                              The Under Secretary of Defense for Personnel and Readiness
                              issue guidance that requires the Services to comply with the
                              section 1566 (f)(1), title 10, United States Code requirement regarding
                              Voting Assistance Officer performance evaluation reports.



                 	5	
                       Army Regulation 608-20, paragraph-2-10(i)




38 │ DODIG-2014-051
                                                                                       Observation 6



Under Secretary of Defense for Personnel and Readiness
The Under Secretary of Defense for Personnel and Readiness concurred with
Recommendation 6.a, and stated that they “will incorporate guidance regarding Voting
Assistance Officer performance evaluation reports into DoD Instruction 1000.04,
“Federal Voting Assistance Program,” which is currently under revision.”


Our Response
The DoD OIG finds the management comments of the Under Secretary of Defense for
Personnel and Readiness to be responsive to Recommendation 6.a. No further comments
are required



        Revised Recommendation 6.b
        The Adjutant General, United States Army, ensure continued command
        emphasis on the section 1566 (f)(1), title 10, United States Code
        and Army Regulation 608-20, “Army Voting Assistance Program,”
        October 28, 2004, requirement for comment on voting assistance
        officer performance in their evaluations in future-versions of the Army
        VAP regulations and Army Voting Action Plans.


The Adjutant General, United States Army
The Adjutant General, United States Army non-concurred with previous draft
Recommendations 6.b.1 and 6.b.2. The DoD OIG had issued a draft Recommendation 6.b
requiring:

             The Adjutant General, Army; and the Commander, Navy
             Installations Command ensure that:

                (1)	 Evaluations of Service members designated as Voting
                      Assistance Officers include comments on their Voting
                      Assistance Officer performance.

                (2)	 Service   Voting   Assistance      Program   regulations
                      require that Voting Assistance Officer performance is
                      commented on in their performance evaluations.

The Adjutant General, United States Army stated the requirement was addressed in
the Army Voting Action Plan 2014 and therefore no further action was required.




                                                                                  DODIG-2014-051 │ 39
Observation 6



                 Our Response
                 Based upon the Army ’s non-concurrence with the draft Recommendations 6.b.1 and 6.b.2
                 the DoD OIG:

                         •	 added Revised Recommendation 6.b to account for the Army’s partial
                            compliance with the requirement; and

                         •	 revised draft Recommendations 6.b.1 and 6.b.2 as final Recommendations
                            6.c.1 and 6.c.2, to remove the Adjutant General, United States Army as an
                            action officer.

                 The comments by the Adjutant General, United States Army were partially responsive
                 to Recommendation 6.b. The DoD OIG commends the Army for proactively including
                 the requirement in the Army Voting Action Plan 2014. However, the DoD OIG added
                 a Revised Recommendation 6.b to ensure that this requirement is emphasized in
                 future Army Voting Action Plans so as to increase the awareness of this requirement
                 by commanders.

                 The DoD OIG requests that the Adjutant General, United States Army respond to Revised
                 Recommendation 6.b in the final report by April 30, 2014 with a plan to ensure continued
                 emphasis on this requirement in future Army Voting Action Plans.



                         Revised Recommendation 6.c
                         Commander, Navy Installations Command ensure that:

                                 (1)	 Evaluations of Service members designated as Voting
                                       Assistance Officers include comments on their Voting
                                       Assistance Officer performance in accordance with
                                       section 1566 (f)(1), title 10, United States Code.

                                 (2)	 Service Voting Assistance Program regulations require
                                       that Voting Assistance Officer performance is commented
                                       on in their performance evaluations in accordance with
                                       section 1566 (f)(1), title 10, United States Code.




40 │ DODIG-2014-051
                                                                                            Observation 6



The Commander, Navy Installations Command
The Commander, Navy Installations Command non-concurred with previous draft
Recommendations 6.b.1 and 6.b.2. The Commander, Navy Installations Command stated
the current FVAP DoDI does not require Service VAPs to require VAO performance to
be commented on in performance evaluations. The Commander, Navy Installations
Command stated that the Navy VAP will continue to strictly adhere to DoD guidance
and instruction.


Our Response
The   comments     by   the   Commander,    Navy    Installations   Command    to   draft
Recommendations 6.b.1 and 6.b.2 were not responsive. Any deficiency in the FVAP DoDI
does not remove the Navy’s obligation to comply with 10 U.S.C. § 1566 (f)(1) [2006].

Based upon the Navy’s non-concurrence with the draft Recommendations 6.b.1 and
6.b.2 the DoD OIG revised draft Recommendations 6.b.1 and 6.b.2 as final Revised
Recommendations 6.c.1 and 6.c.2, to remove the Adjutant General, United States
Army as an action officer, as well as to reflect that United States Code is the source of
the requirement.

The DoD OIG requests that the Commander, Navy Installations Command respond to
Revised Recommendations 6.c.1 and 6.c.2 in the final report by April 30, 2014, with
their plan to update Navy VAP regulations to ensure VAO performance is documented in
performance evaluations in accordance with 10 U.S.C. § 1566 (f)(1) [2006].




                                                                                       DODIG-2014-051 │ 41
                                       Part III. Follow-up on Prior Observations and Recommendations




Part III
Follow-up on Prior Observations and
Recommendations



The following observations were included in DoD IG Report No. DoDIG-2013-074,
“Assessment of Voting Assistance Programs for Calendar Year 2012,” April 29, 2013, but
remain unaddressed by the Services.

        •	 Lack of Standardized Definition for an Installation

        •	 Outdated Regulatory Requirements

        •	 Measuring Federal Voting Assistance Program Effectiveness




                                                                                    DODIG-2014-051 │ 43
                                                                          Lack of a Standardized Definition for an Installation




Lack of a Standardized Definition for
an Installation
In DoD IG Report No. DoDIG-2013-074, “ Assessment of Voting Assistance Programs for
Calendar Year 2012” April 29, 2013, the DoD OIG reported that the FVAP Office and the
Military Services had not indicated why one particular installation had an IVA office,
where other installations did not have an IVA office.

This occurred because the FVAP Office and the Military Services had not defined
“installation for the purpose of providing appropriate voting assistance to Service
members” through the establishment of an IVA office. The DoD OIG recommended that:

                 The Adjutant General, United States Army; Commander, Navy
                 Installations Command; Director of Air Force Services; and Deputy
                 Commandant of the Marine Corps for Manpower and Reserve
                 Affairs develop Service-specific definitions of an installation,
                 with associated criteria, for the purposes of voting assistance,
                 and provide it to the Federal Voting Assistance Program Office for
                 publication on their Website. (Recommendation 4)

All four Services had previously concurred with the recommendation, and had either
provided a definition, or stated that a definition was in development.


Army
As of March 18, 2014, the Army stated that their installation definition was:

                 An aggregation of contiguous or near contiguous, real property
                 holdings commanded by a centrally-selected commander. An
                 installation may be made of one or more sites.6

The DoD OIG found the Army definition of an installation for the purposes of
providing voting assistance to be partially responsive. We await further information to
be provided by the Army, to include documentation of supporting criteria or factors that
the Army used to determine that a given base did not need an IVA office, as well as what
alternative voting assistance is provided to Service members stationed at Army bases
that do not have an IVA office. Without this information, it will be difficult to determine


	6	
      Army Regulation 420-1, “Army Facilities Management,” August 24, 2012, page 441.




                                                                                                             DODIG-2014-051 │ 45
Lack of a Standardized Definition for an Installation



                 Army compliance with VAP statutes and regulations regarding whether each Army
                 installation that merited an IVA office had one.


                 Navy
                 The Navy reported that it had revised and clarified the Navy installation definition on
                 July 3, 2013, to include applicable criteria and an explanation of what Naval bases
                 would not be required to have an IVA office, and what voting assistance services would
                 be available at those locations. The Navy provided the following definition:

                            A Navy Shore Installation is defined in reference (b) as a Secretary
                            of the Navy established activity on shore with a Commanding
                            Officer (CO) or Officer in Charge (OIC), a prescribed mission, a
                            holder of real property, and has facilities.

                            The Navy has adopted its definition of a Shore Installation for the
                            purposes of voting assistance and determining where Installation
                            Voting Assistance (IVA) Offices are required. While, in some cases,
                            Installations and Naval Activities both have property, a mission,
                            and CO/OIC, only Navy Installations also have facilities. Facilities
                            include Installation-specific services such as Morale Welfare and
                            Recreation facilities, messing and berthing facilities, operations
                            facilities, etc. Naval Activities do not maintain facilities nor do
                            they have the funding for them. They are thus distinguished
                            from Installations. For example, Naval Surface Warfare Center
                            Carderock, Naval Support Activity Philadelphia, and the Naval
                            Academy are all Naval Activities. They all have a CO/OIC, property,
                            and a mission; however, they do not have the facilities that
                            distinguish them from Installations.

                            Voters at Naval Activities that are not defined as Installations
                            and, therefore, do not have IVA Offices have several resources
                            available to receive voting assistance. Their command will have
                            a Unit Voting Assistance Officer (UVAO) assigned to maintain a
                            command-level Voting Assistance Program. Installation Voting
                            Assistance Officers (IVAOs) are available to supplement and
                            support VAOs. Additionally, voters can receive assistance from the
                            Federal Voting Assistance Program (FVAP) via their online Web
                            portal, e-mail, or telephone call centers.




46 │ DODIG-2014-051
                                                       Lack of a Standardized Definition for an Installation



The DoD OIG found the Navy definition of an installation for the purposes of providing
voting assistance to be responsive, and met the requirement of the previous DoD OIG
report recommendation.


Air Force
The Air Force reported it had revised and clarified the Air Force installation definition
in the Air Force Voting Action Plan 2014-2015, December 24, 2013, to include
applicable criteria and an explanation of which Air Force bases would not have
IVA offices, and what voting assistance services would be available at those locations.
Section 3.g(1)(a) states:

            The Military and Overseas Voter Empowerment Act (MOVE Act)
            of 2009 requires the DoD to establish IVA Offices on all military
            installations. AFPD 10-5, “Basing” defines a “major installation”
            in attachment 2 (para A2.1.2): A self-supporting center of
            operations for actions of importance to the Air Force combat,
            combat support, or training activities. Operated by an active unit
            of wing size or larger with all land, facilities, and organic support
            needed to accomplish the unit mission. Must have real property
            accountability through ownership, lease, permit, or other written
            agreement for all real estate and facilities. Agreements with
            foreign governments which give the Air Force jurisdiction over
            real property meet this requirement. Shared-use agreements
            (as opposed to joint-use agreements where the Air Force owns
            the runway) do not meet the criteria to be major installations.
            Guard and Reserve bases are not included in this definition, nor
            are deployed locations. Criteria to support this definition for the
            purpose of voting assistance: An Installation Voter Assistance
            Office will be required at every active duty installation location
            where a wing HQs is established and a full complement of groups
            is locally assigned. Wings with dispersed units to geographically
            separated units (GSUs) will not have a stand-alone IVA Office,
            but will appoint an IVAO and UVAOs as required by AFI 36-3107.
            Examples of USAF installations that do not fit this criteria include
            RAF Alconbury which consists of multiple GSUs; Arnold AFB
            which does not operate at wing level or above and has a very
            small, mostly civilian (non-UOCAVA) population; Creech AFB,
            which is part of Nellis AFB and assigns its own IVAO/Alt IVAO;




                                                                                          DODIG-2014-051 │ 47
Lack of a Standardized Definition for an Installation



                            Cavalier AFS which operates at the squadron level; and Thule AB,
                            which operates at the group level. All levels of command, regardless
                            of population size are to be supported for voting assistance as
                            required by AFI 36-3107. The establishment of IVA Offices on
                            Joint Bases is executed IAW the Memorandum of Agreement
                            between the SVAOs representing each of the Branches of Service.
                            See paragraph 3i(30) regarding joint bases. Deployed steady state
                            locations, with the exception of Al Udeid, are not to establish an
                            IVA Office, but will appoint an IVAO for the entire course of his/
                            her deployment. The USAF determines that the installations in
                            subparagraph (b) below meet this criteria.

                 The DoD OIG found the Air Force definition of an installation for the purposes of
                 providing voting assistance to be responsive, and met the requirement of the previous
                 DoD OIG report recommendation.


                 Marine Corps
                 In February 2014, the Marine Corps restated their installation definition, which was
                 essentially identical to what they provided in their “Annual Assessment by the Inspector
                 General of the Marine Corps of the United States Marine Corps’ Voting Assistance
                 Program for Calendar Year 2012,” January 30, 2013. The Marine Corps provided the
                 following definition:

                            From the IGMC CY2012 Voting report—A Marine Corps
                            installation is not defined by the service member population
                            or geographical area it covers. The Marine Corps installations
                            are defined by the support provided to the operating forces.
                            According to the USMC Installations Strategic Plan published
                            by the Marine Corps Installation Command (MCICOM):
                            “Marine Corps installations consistently provide high quality
                            and affordable support that is directly linked to the requirements
                            of Marine Corps Operating Forces, individual Marines, and
                            family members. Marine Corps installations provide a significant
                            and measurable contribution to the combat readiness of the
                            Marine Corps.     Marine Corps installations are key national
                            defense assets which offer a unique combination of ocean, coastal,
                            riverine, inland, and airspace training areas. This makes them
                            essential components in the foundation of our national defense




48 │ DODIG-2014-051
                                                      Lack of a Standardized Definition for an Installation



           as they directly support the combat readiness of Marine Corps
           Operating Forces.”

           The concept of “support provided’ in defining an installation
           includes support provided for Voting assistance purposes. To
           define an installation is like defining a city. For the military men
           and women, installations are the cities we work and live in. USMC
           has defined a list of 18 Installations, with the clarification on the
           two exceptions of MCAS New River and Camp Mujuk.

The Marine Corps definition of an installation did not include clear criteria to determine
which Marine Corps bases are required to have an IVA office, and which do not. The
Marine Corps did provide examples of two bases that do not have IVA offices,

        •	 The Marine Corps stated that Marine Corps Air Station New River does not
           have an IVA office because there is an IVA office available at Camp LeJune,
           which is less than 2 miles away. The DoD OIG finds this to be a reasonable
           explanation.

        •	 However, for Camp Mujuk, the Marine Corps stated that it has a population
           of 43 Service members and cannot support an IVA office.

The DoD OIG found the Marine Corps definition of an installation for the purposes
of providing voting assistance to be responsive, and met the requirement of the
previous DoD OIG report recommendation.




                                                                                         DODIG-2014-051 │ 49
                                                                      Outdated Regulatory Requirements




Outdated Regulatory Requirements
To implement the MOVE Act requirements, the Under Secretary of Defense for Personnel
and Readiness issued the FVAP DoDI, which changed the VAP requirements toward the
end of the Services’ CY 2012 VAP review cycles.

The DoD OIG stated in DoD IG Report No. DoDIG-2013-074, “Assessment of Voting
Assistance Programs for Calendar Year 2012,” April 29, 2013, that the Army, Navy, and
Air Force VAP regulations had not been updated and did not address all current
requirements in DoD FVAP guidance. For example, the requirement to provide voting
awareness training to all Service members regarding “. . . absentee registration and voting
procedures” changed from “during years of elections for Federal offices” to “annually.”

As a result, the Services could not verify that they were addressing all current and
relevant areas of VAP compliance or ensure that they were providing optimal voting
assistance to Service members.

The DoD OIG recommended in the report that:

           The Adjutant General, United States Army; Commander, Navy
           Installations Command; Director of Air Force Services; and Deputy
           Commandant of the Marine Corps for Manpower and Reserve
           Affairs:

           a.	 Issue interim Military Service guidance to implement
               Department of Defense Instruction 1000.04, “Federal Voting
               Assistance Program.”

           b.	 Revise Military Service Voting Assistance Program regulations
               to implement Department of Defense Instruction 1000.04,
               “Federal Voting Assistance Program.” (Recommendation 2)

In April 2013, the Army, Navy, Air Force, and Marine Corps concurred with
Recommendation  2.a., and provided their voting action plans and other supporting
documents as part of their comments to the draft report to demonstrate that they had
provided interim guidance while their Service VAP guidance was being revised.

In response to Recommendation 2.b. of DoD IG Report No. DoDIG-2013-074,
“Assessment of Voting Assistance Programs for Calendar Year 2012” April 29, 2013, the
Marine Corps stated that they had issued Marine Corps Order 1742.1B, “Voting Assistance




                                                                                          DODIG-2014-051 │ 51
Outdated Regulatory Requirements



                 Program,” on April 1, 2013, which addressed the changes to VAP requirements brought
                 about by the MOVE Act and the issuance of the FVAP DoDI.

                 The Air Force concurred with Recommendation 2.b of DoD IG Report No.
                 DODIG-2013-074, “Assessment of Voting Assistance Programs for Calendar Year 2012”
                 April 29, 2013, and stated that the Air Force VAP regulations was in the final
                 coordination and publication process.      Subsequently on February 27, 2014, the
                 revised Air Force VAP regulation was published. This revised Air Force VAP regulation
                 addressed the changes to VAP requirements as a result of the MOVE Act in 2008 and
                 the issuance of the updated FVAP DoDI in 2012. The Air Force also issued a new
                 “Air Force Voting Action Plan, 2014-15” on February 10, 2014.

                 In response to Recommendation 2.b, of DoD IG Report No. DoDIG-2013-074,
                 “Assessment of Voting Assistance Programs for Calendar Year 2012” April 29, 2013, the
                 Army and Navy concurred and stated that they were in the process of revising their
                 VAP regulations to bring them into conformity with the FVAP DoDI. In April 2013 and
                 March 2014, the Army stated that their VAP regulation was in internal review and
                 anticipated a spring  2014 release date. The Navy stated in February 2014 that they
                 anticipated publication of their revised VAP regulation within the second quarter of
                 calendar year 2014.

                 The DoD OIG looks forward to the receipt of revised published Army and
                 Navy VAP regulations.




52 │ DODIG-2014-051
                                               Measuring Federal Voting Assistance Program Effectiveness




Measuring Federal Voting Assistance
Program Effectiveness
The DoD OIG stated in DoD IG Report No. DoDIG-2013-074, “Assessment of Voting
Assistance Programs for Calendar Year 2012,” April 29, 2013 that while the FVAP Office
and Military Services had developed and applied some VAP goals and metrics, they were
not sufficient to be able to comprehensively evaluate and report on the effectiveness of
program accomplishment.

This occurred because while the DoD FVAP Office has identified some voting assistance
activity goals and metrics consistent with congressional intent, it had not aligned
its activity to outcome-focused goals to ensure its activity is focused on continually
improving program performance and effectiveness. Further, the DoD FVAP Office had
not provided sufficient guidance to the Military Services for them to comprehensively
assess the effectiveness of their VAP performance, nor coordinated implementation
with them.

As a result, although the Services reported the results of compliance inspections of their
respective VAP programs with indicated levels of required activity, the metrics did not
clearly show the actual effectiveness of program performance with respect to specific
VAP goals.

In its report, the DoD OIG recommended that:

             The Director, Federal Voting Assistance Program Office, on behalf
             of the Under Secretary of Defense for Personnel and Readiness,
             coordinate with the Adjutant General, Army; Commander, Navy
             Installations Command; Director of Air Force Services; and Deputy
             Commandant of the Marine Corps for Manpower and Reserve
             Affairs to:

             1.	 Enhance performance goals and indicators for annual
                 assessment of voting assistance activities to enable
                 measurement of program effectiveness.

             2.	 Provide guidance to the Military Services regarding voting
                 assistance program performance goals and indicators to
                 enable them to measure program effectiveness at the Service
                 level. (Recommendation 3.a)




                                                                                        DODIG-2014-051 │ 53
Measuring Federal Voting Assistance Program Effectiveness



                            The Army, Navy, Air Force, and Marine Corps Inspectors General:
                            upon receipt of the performance goals and indicators from the
                            Federal Voting Assistance Program Office, include an evaluation of
                            their respective voting assistance programs’ effectiveness in their
                            annual voting assistance program reports to the Department of
                            Defense Inspector General. (Recommendation 3.b)

                 The FVAP Office concurred with our recommendations and stated that the collection
                 of metrics to measure effectiveness can be improved, and they have been working
                 with the Military Services to gather VAP metrics.

                 The FVAP Office also engaged with the RAND Corporation, a National Defense Research
                 Institute, to examine the Department’s voter assistance responsibilities, the role played
                 by IVA offices, and to help define new metrics and refine those currently collected. The
                 preliminary results of this research are expected in early 2014 for use in developing a
                 legislative proposal to revise the statutory requirements regarding how the FVAP Office
                 will be expected to operate, with the final report results anticipated in June 2014.

                 The FVAP Office will also use the RAND study to review, develop, and revise FVAP
                 policies to generate standard VAP goals for the services to optimize voting assistance to
                 military personnel and other overseas citizens.

                 The DoD OIG awaits the outcome of the RAND Corporation review, and the FVAP Office
                 implementation of enhanced FVAP Office performance goals and indicators, as well as
                 guidance for the Services to apply in assessing performance effectiveness of their VAPs.

                 Once the FVAP Office provides VAP performance measurement guidance to the Services,
                 the DoD OIG also awaits the Services’ evaluations of their own VAP program effectiveness.




54 │ DODIG-2014-051
                                                                                              Appendixes




Appendix A
Scope and Methodology
We conducted this assessment from November 2013 through March 2014 in accordance
with our responsibilities under 10 U.S.C. § 1566 (2006), and in accordance with
provisions of the Inspector General Act of 1978, as amended; “Quality Standards for
Inspection and Evaluation,” Council of the Inspectors General on Integrity and Efficiency,
January 2012; and the FVAP DoDI.

To accomplish our objectives, we used a continuous assessment methodology to
accommodate the law’s annual reporting requirements. The methodology involves
continual risk assessment based on:

         •	 routine and on-going dialog with senior officials and other stakeholders
            involved in the administration of the voting assistance program;

         •	 analysis of previous oversight activities and reports issued by the DoD IG,
            Government Accountability Office (GAO), and others (see “Prior Report
            Coverage”); and

         •	 “real-time” feedback to senior officials and other senior stakeholders
            outside formal or traditional reporting mechanisms.

During   the   current   reporting    cycle,   we   reviewed   relevant   laws,   policies,
Military regulations, and other appropriate documents.             In accordance with
10 U.S.C. § 1566 (2006), we received assessment reports from the Army, Navy,
Air Force, and Marine Corps IGs covering calendar year 2013.           We reviewed the
Service IG reports and supporting data, as needed; met with Service Voting
Action Officers and Service IG representatives from the Army, Navy, Air Force, and
Marine Corps; and discussed their data collection procedures and criteria used as a
basis for their conclusions.    We did not validate the information the Service IGs
provided.   However, we applied alternate qualitative assessment techniques, such
as discussion with senior program officials and knowledgeable personnel. We had a
preliminary meeting with the FVAP Director to discuss the scope of our VAP assessment,
and reviewed publicly available reports prepared by the FVAP Office staff.

For this report, our intent in accordance with 10 U.S.C. § 1566 (2006) was to report on
the overall effectiveness of the DoD VAPs. In doing so, we sought to view effectiveness
in terms of “results” as opposed to “activity.” Therefore, we defined effectiveness as




                                                                                         DODIG-2014-051 │ 55
Appendixes



                 the measurable progress the program made in fulfilling its congressionally intended
                 purpose: to increase opportunities for voter registration and voter participation.


                 Use of Computer-Processed Data
                 We used computer-processed data to perform this assessment. However, the DoD OIG
                 Assessment Team relied on the reports generated by the Service IGs based on their
                 inspections of the Service VAPs. We did not test the validity or verify the results of
                 any computer processed data used by the Service IGs in their reporting because we
                 determined that the reliability of the data would not materially affect our ability to make
                 conclusions on the Services’ compliance with applicable VAP laws and regulations.




56 │ DODIG-2014-051
                                                                                                                               Appendixes




Appendix B
Federal Voting Assistance Program Overview
Title 42, Chapter 20, Subchapter I-G, “Registration and Voting by Absent Uniformed
Services Voters and Overseas Voters in Elections for Federal Office,” U.S.C., Section
1973ff(a) and (b) required the President to designate the head of an executive department
to have primary responsibility for the implementation of voting assistance duties.

In response, the President issued Executive Order 12642, “Designation of the Secretary
of Defense as the Presidential Designee Under Title I of the Uniformed and Overseas
Citizens Absentee Voting Act, “ which did as the title stated. The Secretary of Defense had
further delegated this authority and the reporting requirement to the Under Secretary
of Defense for Personnel and Readiness.7

The Under Secretary of Defense for Personnel and Readiness administers the FVAP in
accordance with 42 U.S.C. § 1973ff (2012):

            •	 to coordinate and implement actions that may be necessary to discharge
                Federal voting responsibilities,

            •	 to develop policy and procedures to implement DoD responsibilities, also
                known as the National Voter Registration Act (Section 1973gg-5),

            •	 to grant or deny hardship exemption waivers submitted by a State (after
                consultation with the Attorney General’s designee) and inform the State of
                the results of the waiver request (Section 1973ff-1(g)), and

            •	 to ensure that the Director, Department of Defense Human Resources Activity
                designates a civilian Director of the FVAP.

The Under Secretary of Defense for Personnel and Readiness delegated these duties
to a subordinate organization, the FVAP Office, and its Director, who implements the
day‑to‑day Voting Assistance functions.

The MOVE Act was designed to address issues associated with providing overseas
military personnel and civilians their right to vote and to have their votes counted.8 The


	 7	
    Department of Defense Directive 5124.02, “Under Secretary of Defense for Personnel and Readiness (USD(P&R)),”
    June 23, 2008, Sections 6.13 and 6.14
	8	
    Public Law 111-84, “National Defense Authorization Act for Fiscal Year 2010,” Title V, ”Military Personnel Policy,”
    Subtitle H, “Military Voting,” October 28, 2009.




                                                                                                                          DODIG-2014-051 │ 57
Appendixes



                 MOVE Act amended the UOCAVA by placing new authorities and responsibilities on the
                 Presidential designee, the Secretary of Defense. The Secretary of Defense delegated
                 authority and responsibility to the Director, FVAP Office. The new authorities are to

                          (1)	 develop online portals of information to inform absent
                                uniformed services voters regarding voter registration
                                procedures and absentee ballot procedures to be used by
                                such voters with respect to elections for Federal office.

                          (2)	 establish a program to notify absent uniformed services
                                voters of voter registration information and resources, the
                                availability of the Federal postcard application, and the
                                availability of the Federal write-in absentee ballot on the
                                military Global Network, and shall use the military Global
                                Network to notify absent uniformed services voters of
                                the foregoing 90, 60, and 30 days prior to each election for
                                Federal office.

                 The FVAP Office is required to report the UOCAVA specified information to Congress
                 not later than March 31 of each year. Their report is required to include descriptions
                 of Military Department voter registration assistance programs and their utilization,
                 absentee ballot collection and delivery, cooperation between States and the Federal
                 Government, as well as, assessments of absent uniformed services and overseas voter
                 registration and participation.

                 The FVAP Office shall:

                          (1)	 consult State and local election officials in carrying out this
                                subchapter, and ensure that such officials are aware of the
                                requirements of this Act;

                          (2)	 prescribe an official post card form, containing both an
                                absentee voter registration application and an absentee ballot
                                application, for use by the States as required under section
                                1973ff–1(a)(4) of this title;

                          (3)	 carry out section 1973ff–2 of this title with respect to the
                                Federal write-in absentee ballot for absent uniformed
                                services voters and overseas voters in general elections for
                                Federal office;




58 │ DODIG-2014-051
                                                                                                                                         Appendixes



                (4)	 prescribe a suggested design for absentee ballot mailing
                         envelopes;

                (5)	 compile and distribute

                         (A)	 descriptive material on State absentee registration and
                                  voting procedures, and

                         (B)	 to the extent practicable, facts relating to specific
                                  elections, including dates, offices involved, and the text
                                  of ballot questions;

                (6)	 not later than the end of each year after a Presidential election
                         year, transmit to the President and the Congress a report on the
                         effectiveness of assistance under this subchapter, including a
                         statistical analysis of uniformed services voter participation,
                         a separate statistical analysis of overseas nonmilitary
                         participation, and a description of State-Federal cooperation;

                (7)	 prescribe a standard oath for use with any document under
                         this subchapter affirming that a material misstatement of fact
                         in the completion of such a document may constitute grounds
                         for a conviction for perjury;

                (8)	 carry out section 1973ff–2a of this title with respect to
                         the collection and delivery of marked absentee ballots of
                         absent overseas uniformed services voters in elections for
                         Federal office.9

                (9)	 to the greatest extent practicable, take such actions as may
                         be necessary—

                         (A)	 to ensure that absent uniformed services voters who
                                  cast absentee ballots at locations or facilities under the
                                  jurisdiction of the Presidential designee are able to do so
                                  in a private and independent manner; and

                         (B)	 to protect the privacy of the contents of absentee ballots
                                  cast by absentee uniformed services voters and overseas
                                  voters while such ballots are in the possession or control
                                  of the Presidential designee;

	 9	
       DoDI 1000.04, enclosure 4, section “ad,” delegated this responsibility to the Military Postal Service Agency, of the Office of
       the Under Secretary of Defense for Acquisition, Technology and Logistics.




                                                                                                                                    DODIG-2014-051 │ 59
Appendixes



                                 (10)	 carry out section 1973ff–2b of this title with respect to Federal
                                          Voting Assistance Program Improvements; and

                                 (11)	 working with the Election Assistance Commission and the
                                          chief State election official of each State, develop standards—

                                          (A)	 for States to report data on the number of absentee ballots
                                                     transmitted and received under section 1973ff–1(c)
                                                     of this title and such other data as the Presidential
                                                     designee determines appropriate; and

                                          (B)	 for the Presidential designee to store the data reported.


                 Service VAP Role
                 Military Services’ VAPs utilize the chain-of-command and installation structure to
                 ensure that Service members and their family members receive FVAP information about
                 absentee voting, including registration and voting procedures, dates of scheduled
                 elections for Federal offices, points of contact for additional assistance, and voting
                 materials such as absentee ballots.

                 Each Service provides extensive voting assistance starting at the unit level. Assistance
                 with any portion of the absentee voting process can be obtained by contacting the
                 IVA office. Service specific voting information can be found by contacting the Service
                 Voting Action Officer.


                 Service IG Role
                 Section 1566, title 10, United States Code10 requires the Service IGs to conduct:

                                 (A)	 an annual review of the effectiveness of voting assistance
                                          programs; and

                                 (B)	 an annual review of the compliance with voting assistance
                                          programs of that armed force.

                 And report it to the DoD IG annually.




                 	10	
                        10 U.S.C. §1566 (c) [2006]




60 │ DODIG-2014-051
                                                                                              Appendixes



DoD IG Role
Section 1566, title 10, United States Code,11 requires that the DoD IG submit a report to
Congress by March 31 of each year that assesses:

                (A)	 the effectiveness during the preceding calendar year of voting
                        assistance programs; and

                (B)	 the level of compliance during the preceding calendar year
                        with voting assistance programs of each of the Army, Navy, Air
                        Force, and Marine Corps.


Roles of Other DoD Organizations
The FVAP DoDI assigns 42 U.S.C. §1973ff—2a (2012) “Procedures for collection and
delivery of marked absentee ballots of absent overseas uniformed services voters,” duties
to the Military Postal Service Agency, of the Office of the Under Secretary of Defense for
Acquisition, Technology and Logistics.


Other Executive Branch Roles
Section 1973, title 42, United States Code,12 states the head of each Government
department, agency, or other entity shall, upon request of the Presidential designee,
distribute balloting materials and otherwise cooperate in carrying out registration
and voting by absent uniformed services voters and overseas voters in election for
federal office.

Section 1973, title 42, United States Code,13 states the Attorney General may bring a
civil action in an appropriate district court for such declaratory or injunctive relief as
may be necessary to carry out this subchapter.


Administrator of General Services Role
As directed by the Presidential designee, the Administrator of General Services shall
furnish official post card forms and Federal write-in absentee ballots.14




	11	
       10 U.S.C. §1566 (c)(3) [2006]
	12	
       42 U.S.C. §1973ff(c)(1) [2012]
	13	
       42 U.S.C. § 1973ff—4 (a) [2012]
	14	
       42 U.S.C. § 1973ff(c)(2) [2012]




                                                                                         DODIG-2014-051 │ 61
Appendixes




                 States Role
                 Section 1973, title 42, United States Code,15 stated “In general, each state shall permit
                 absent uniformed services voters and overseas voters to use absentee registration
                 procedures and to vote by absentee ballot in general, special, primary, and runoff
                 elections for Federal office. UOCAVA, as amended by the MOVE Act, requires states to
                 transmit requested absentee ballots to UOCAVA voters no later than 45 days before a
                 Federal election, and electronically upon request.”

                 Section 1973, title 42, United States Code,16 stated “A State may not refuse to accept
                 or process, with respect to any election for Federal office, any otherwise valid voter
                 registration application or absentee ballot application submitted by an absent
                 uniformed services voter during a year on the grounds that the voter submitted the
                 application before the first date on which the State otherwise accepts or processes such
                 applications for that year submitted by absentee voters who are not members of the
                 uniformed services.”




                 	15	
                        42 U.S.C. §1973ff—1 (2012)
                 	16	
                        42 U.S.C. §1973ff—3 (2012)




62 │ DODIG-2014-051
                                                                                          Appendixes




Appendix C
Prior Coverage
During the last 5  years, the Government Accountability Office (GAO) and the DoD IG
issued seven reports discussing DoD Voting Assistance Programs. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
reports can be accessed at http://www.dodig.mil/pubs/index.cfm.


GAO
Report No. GAO-10-476, “Elections: DoD Can Strengthen Evaluation of Its Absentee Voting
Assistance Program,” June 17, 2010


DoD OIG
Report No. DoDIG-2013-074, “Assessment of Voting Assistance Programs for Calendar
Year 2012,” April 29, 2013

Report No. DoDIG-2012-123, “Assessment of the Federal Voting Assistance Program
Office Implementation of the Military and Overseas Voter Empowerment Act,”
August 31, 2012

Report No. DoDIG-2012-068, “Assessment of Voting Assistance Programs for Calendar
Year 2011,” March 30, 2012

Report No. SPO-2011-006, “2010 Evaluation of the DoD Federal Voting Assistance
Program (FVAP),” March 22, 2011

Report No. SPO-2010-004, “2009 Evaluation of the DoD Voting Assistance Program,”
September 27, 2010

Report No. IE-2009-005, “2008 Evaluation of the DoD Voting Assistance Program,”
April 30, 2009




                                                                                     DODIG-2014-051 │ 63
                                                                               Acronyms and Abbreviations




Acronyms and Abbreviations
    Air Force IG Air Force Inspector General
       Army IG United States Army Inspector General Agency
          DoDI Department of Defense Instruction
          FPCA Standard Form 76, “Voter Registration and Absentee Ballot Request Federal Post
               Card Application”
          FVAP Federal Voting Assistance Program
             IG Inspector General
            IVA Installation Voter Assistance
          IVAO Installation Voting Assistance Officer
Marine Corps IG Inspector General of the Marine Corps
         MOVE Military and Overseas Voter Empowerment
       Navy IG Naval Inspector General
           OIG Office of Inspector General
       UOCAVA The Uniformed and Overseas Citizens Absentee Voting Act
         UVAO Unit Voting Assistance Officer

         U.S.C. United States Code
           VAP Voting Assistance Program
           VAO Voting Assistance Officer




                                                                                            DODIG-2014-051 │ 65
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                            DoD Hotline
                           dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
